<html>
<title> - [H.A.S.C. No. 116-57] SECURITY UPDATE ON THE KOREAN PENINSULA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-57]

                SECURITY UPDATE ON THE KOREAN PENINSULA

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            JANUARY 28, 2020
                            
                            


 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
 
 
 
 
                             ______
 
              U.S. GOVERNMENT PUBLISHING OFFICE 
 40-664                 WASHINGTON : 2020 
  
 


                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
VERONICA ESCOBAR, Texas              MICHAEL WALTZ, Florida
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
ANTHONY BRINDISI, New York

                     Paul Arcangeli, Staff Director
                Matt Rhoades, Professional Staff Member
                  Kim Lehn, Professional Staff Member
                          Emma Morrison, Clerk
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Committee on Armed Services....................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Ranking Member, Committee on Armed Services....................     2

                               WITNESSES

Allvin, Lt Gen David W., USAF, Joint Staff, Director for 
  Strategy, Plans, and Policy, J5................................     5
Rood, John C., Under Secretary of Defense for Policy, Office of 
  the Secretary of Defense.......................................     3

                                APPENDIX

Prepared Statements:

    Rood, John C., joint with Lt Gen David W. Allvin.............    43

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mrs. Hartzler................................................    55
    Mrs. Luria...................................................    55
    Mr. Mitchell.................................................    55
    Mr. Thornberry...............................................    55

Questions Submitted by Members Post Hearing:

    Ms. Escobar..................................................    61
    Mr. Kim......................................................    59
    Ms. Stefanik.................................................    59
    
                SECURITY UPDATE ON THE KOREAN PENINSULA

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Tuesday, January 28, 2020.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118, Rayburn House Office Building, Hon. Adam Smith (chairman 
of the committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. I will call the meeting to order. Welcome.
    This is a hearing to get an update on the security 
situation on the Korean Peninsula. This morning we have the 
Office of Secretary of Defense represented by John Rood, Under 
Secretary of Defense for Policy; and, from the Joint Staff, 
Lieutenant General David Allvin, who is the Director for 
Strategy, Plans, and Policy for the J5.
    Obviously, there are many challenges in the world, but 
North Korea is one of the more prominent ones. I think it is 
very appropriate to get an update because we have sort of 
reached yet another turning point, I believe, in our 
relationship with North Korea as negotiations appear to have 
stalled and there is a definite unpredictability about the 
immediate future in terms of what North Korea is going to do. 
And we need to hear from our leadership about what that 
strategy is going forward.
    For my part, containing North Korea is a very worthy 
objective with the ultimate goal of a denuclearized North 
Korea, admitting that that will be a difficult goal to achieve.
    I do want to say, in the last couple of years tensions have 
calmed considerably between North and South Korea as the 
negotiations began in earnest and there is a real desire to 
find peace. But the stumbling block continues to be a regime 
that is a rogue regime, that does not adhere to international 
norms, that has continued, even in the last year, to have, I 
think, over a dozen missile tests in violation of U.N. [United 
Nations] security agreements, and also continues to maintain 
its nuclear stockpile with no intention of getting rid of it.
    As I said, the ultimate objective is to reintegrate North 
Korea into the rest of the world, get rid of their weapons, and 
begin focusing on their economy, but that is a very, very 
difficult challenge.
    The other big part of this challenge, of course, is our 
relationship with South Korea, which I think is very positive 
and very strong and enormously important to maintaining our 
interests in the region, not just with regard to North Korea 
but obviously our concerns about China and how we deal with 
their malign activity in Asia.
    We want to maintain a strong relationship with South Korea, 
and we would love to hear from our witnesses today about where 
they see that relationship going. There has been an ongoing 
discussion about the security arrangement with South Korea, 
basically how much will they pay. And the administration made a 
rather substantial ask in terms of increasing that amount, I 
believe from just over a billion dollars to somewhere north of 
$5 billion.
    I worry that that approach could potentially jeopardize our 
relationship with South Korea. I think we get a lot out of that 
relationship. We are not just there to protect South Korea. Our 
interests in stability in the region are paramount. So I hope 
we will consider that when we look at what South Korea pays and 
then how it matches up against our interests.
    So we have many challenges there. I look forward to the 
testimony to hear where we plan to go.
    I will note for members that at the conclusion of this we 
will have a classified brief upstairs in 2212 if there are 
questions that go outside the range of what we can discuss in a 
public setting.
    And with that, I will yield to the ranking member, Mr. 
Thornberry, for any opening statement he might have.

      STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
 REPRESENTATIVE FROM TEXAS, RANKING MEMBER, COMMITTEE ON ARMED 
                            SERVICES

    Mr. Thornberry. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    I think it is one of the defining characteristics of our 
time that we face so many diverse national security threats and 
challenges all at the same time. And there is no question that 
a nation like North Korea may try to take advantage of what 
they perceive as of us being distracted in the Middle East or 
vice versa.
    And so keeping our eye on this security challenge is very 
important. And I believe that we have to be, while the 
President is trying a number of initiatives, we have to be 
clear-eyed about the threat that emanates from North Korea, not 
only against us, but our allies.
    I want to mention one other thing just briefly, because I 
believe that every member of this committee takes pride in not 
only our mission, but our ability to get things done. It was a 
close-run thing, but for the 58th straight year we were able to 
pass and be signed into law by an overwhelming margin the 
defense authorization bill last December.
    I am concerned, however, that what is happening on the 
floor this week threatens our ability to work together. In a 
hundred years at least, no party has denied a motion to 
recommit on a significant issue on the floor. So this week we 
are going to vote on life-and-death, war-and-peace issues with 
minimal debate, no amendments, and now, as I understand it, not 
even a motion to recommit, the last vestige of having an 
alternative view expressed. Again, it has not happened in a 
hundred years.
    I think that ought to alarm all of us who care about this 
institution and care about our ability to work together on 
behalf of the country's national security. I think we are going 
to hear a lot about that this week, and I wanted to put it on 
the radar screen of every member of this committee, because, 
again, we are the exception around here, and it will be harder 
and harder for us to be insulated from the partisan waves that 
overwhelm us if something like this takes place.
    I yield back.
    The Chairman. Thank you. And just so we are clear, the 
issues in question did not come out of this committee. I 
believe those are Foreign Affairs Committee.
    Mr. Thornberry. I am sorry. You are absolutely right, Mr. 
Chairman. This was not your decision or come out of this 
committee. I just wanted to raise it, because I think that the 
interests of this committee could be affected.
    The Chairman. Fair enough.
    Mr. Rood.

   STATEMENT OF JOHN C. ROOD, UNDER SECRETARY OF DEFENSE FOR 
           POLICY, OFFICE OF THE SECRETARY OF DEFENSE

    Secretary Rood. Well, thank you, Mr. Chairman and 
Congressman Thornberry. I appreciate the opportunity to testify 
before the committee today. Lieutenant General Allvin and I 
have a longer written statement, Mr. Chairman, that I would ask 
be placed in the record, and we will summarize.
    The Chairman. Without objection.
    Secretary Rood. Thank you.
    North Korea remains a security challenge and we continue to 
pursue its denuclearization. By any measure, North Korea poses 
an ongoing credible threat to the United States homeland, our 
allies in South Korea and Japan, in addition to undermining 
international arms control regimes and engaging in egregious 
human rights violations and abuses.
    For DOD [Department of Defense], our partnership with the 
Republic of Korea, or South Korea, is very important. Our goal 
is to maintain and strengthen our alliance while also 
transforming it to meet the needs of the future.
    As you know, the U.S. alliance with the ROK [Republic of 
Korea] was forged and bonded in blood. Soldiers from the United 
States with the ROK and many other states of the U.N. Command 
answered the call to defend the people they never met in a 
country they never knew against North Korea's invasion.
    After the signing of the armistice in 1953, the United 
States and ROK signed a mutual defense treaty that established 
an ongoing U.S. commitment to the security of the ROK. This 
commitment and the security it provided has allowed the ROK to 
develop into a proud, prosperous, peaceful democratic state 
with whom we share many values and goals.
    In the military domain, the ROK is home to three United 
States-led military commands: the U.N. Command, which is 
charged with implementing the armistice; U.S. Forces Korea, a 
major sub-unified command that administers, trains, and equips 
the over 28,500 U.S. troops deployed to the peninsula; and the 
Combined Forces Command, which is the U.S.-ROK combined 
fighting force.
    We are modernizing and transforming our alliance on a 
number of fronts. First, we are working to transition wartime 
operational control from the Combined Forces Command, led by a 
U.S. officer, to one led by an ROK officer. To meet the 
requirements necessary to assume operational control during 
wartime, the ROK is undertaking a major military modernization 
program. Additionally, the State Department is leading 
negotiations for the 11th Special Measures Agreement.
    Looking to the future, we are adapting by investing more 
robustly in our defense, and asking our partners and allies, 
particularly our wealthy ones, to shoulder a larger share of 
the burden of maintaining peace, security, and stability.
    Though we are engaged in tough negotiations on the Special 
Measures Agreement, we remain committed to reaching a mutually 
beneficial and equitable agreement that will strengthen our 
alliance and our combined defense.
    Let me speak about readiness for a moment. The U.S.-ROK 
alliance is both broad and deep, built not only on common 
security concerns, but also political, military, and economic 
ties and our values between our people.
    The alliance is best displayed in two phrases, one, ``We go 
together,'' and the other, ``Fight Tonight!'' It remains our 
goal to maintain a strong and ready force to enable the 
diplomatic space that is necessary for diplomacy to succeed.
    The President's North Korea strategy is multifaceted. The 
U.S. Government is working across the spectrum of national 
power with the aim of complete denuclearization of North Korea. 
North Korea must understand that its only path out of economic 
isolation is for it to engage in meaningful, good-faith 
negotiations toward complete denuclearization.
    DOD's role is to provide a credible force and to field the 
capabilities necessary, to include that the U.S. is always 
negotiating from a position of strength. DOD must be prepared 
for conflict, for as George Washington said, being prepared for 
conflict is the surest way to preserve peace.
    North Korea has the world's fourth-largest standing army, 
comprising over a million men under arms. Aged and obsolete 
equipment is offset by targeting and aggressive modernization 
of conventional weapons, as well as nuclear, chemical, and 
biological programs.
    Over the last decade, North Korea's leaders have 
prioritized increasing the range, survivability, complexity, 
and lethality of key military systems such as ballistic 
missiles, special operations forces, and long-range artillery.
    One of DOD's most visible lines of effort is implementing 
and enforcing U.N. sanctions on North Korea. The U.S. operates 
a multinational Enforcement Coordination Cell out of Yokosuka, 
Japan, where eight nations work together toward this effort. 
This effort is primarily focused on illicit North Korean 
exports of coal and refined petroleum.
    Before I close, Mr. Chairman, let me just say in closing 
that we are very pleased that the 55 boxes of remains from the 
Korean War that the North Koreans returned to us, that we 
continue to do the analysis and make identifications. Thus far, 
43 U.S. service members missing from the Korean War have been 
identified, and more than 100 identifications are expected from 
those remains. This is a sacred duty, obviously, that we have 
on behalf of the Armed Forces that fight.
    And so thank you again, Mr. Chairman, for the opportunity 
to testify today.
    General Allvin.
    [The joint prepared statement of Secretary Rood and General 
Allvin can be found in the Appendix on page 43.]

    STATEMENT OF LT GEN DAVID W. ALLVIN, USAF, JOINT STAFF, 
          DIRECTOR FOR STRATEGY, PLANS, AND POLICY, J5

    General Allvin. Thank you. Good morning, and thank you, 
Chairman Smith, Ranking Member Thornberry, and distinguished 
members, for the opportunity to speak before this committee and 
discuss security on the Korean Peninsula.
    As the Secretary alluded to, North Korea remains a credible 
military threat to the U.S., its allies, and to the region. 
Over the past decade, North Korean leadership have prioritized 
the development of military capabilities, such as the ballistic 
missiles, special operations forces, and long-range artillery 
that the Secretary alluded to. These modernization efforts have 
continued despite the ongoing diplomatic negotiations between 
the U.S. and DPRK [Democratic People's Republic of Korea].
    As for the U.S. and Republic of Korea alliance, we are 
addressing these challenges by focusing on building a more 
lethal force, modernizing key capabilities, and maintaining the 
readiness on the peninsula.
    Although we have made some prudent adjustments to military 
activities in order to enable diplomacy, the focus on skills, 
readiness, and interoperability remains, as demonstrated 
through the more than 200 training events completed in 2019.
    While adjusting our exercise size, scope, volume, and 
timing, the U.S. and the ROK training still ensures that 
``fight tonight'' readiness and the overall defensive posture 
remain strong.
    Outside of the Korean Peninsula, the bilateral, 
multilateral operations and exercises with our allies and 
partners, including the multinational effort to enforce the 
U.N. Security Council resolutions against the DPRK, they serve 
as a force multiplier and demonstrate the continued resolve of 
like-minded nations to defense against common threats to global 
security.
    Thank you, and I look forward to answering your questions 
this morning.
    The Chairman. Thank you very much.
    I just want to drill down on the one point in terms of our 
relationship with South Korea. What is sort of the policy idea 
behind such a large request for the increase in their 
contribution to our mutual defense interests there, and are you 
worried that South Korea will view that in a way that could 
potentially damage our relationship with them?
    And I guess, lastly, I met with the South Korean 
ambassador, and obviously they want to downplay it to some 
extent because they want to maintain the relationship, and they 
said they were quite confident they could work it out. They 
asked for $5 billion. They were willing to give $1 billion. So 
they figured that, you know--it seemed like a larger problem 
than he was saying. Are we going to back off of that, or how 
are we going to walk our way through that rather difficult 
situation?
    Secretary Rood. With respect to the policy objective, Mr. 
Chairman, the President has asked that we ask allies to 
shoulder a larger share of the burden of the cost for 
protecting shared interests.
    I fully agree with your statement earlier that this is not 
simply about the U.S. offering some form of protection to the 
ROK, but rather a shared objective, and the combined nature of 
our forces on the peninsula to me are a testament to that. So 
the objective is larger burden sharing of the costs associated 
with these activities.
    I do share your concern that we have to manage the 
negotiations in a way that doesn't unduly strain the alliance. 
This is the 11th time that we are negotiating a Special 
Measures Agreement. I think it is fair to say throughout our 
history of those negotiations in the past and in the present 
negotiations, there are times where they are tough 
negotiations, and our Korean colleagues are no pushovers in 
this regard.
    So I think, though, we have to recommit ourselves to 
maintaining the ironclad nature of that alliance and try to 
manage that in a way where we can steer this to a successful 
conclusion.
    I would hasten to add the State Department leads those 
negotiations.
    The Chairman. I understand.
    Secretary Rood. We at DOD play a supporting role.
    The Chairman. You play--I mean, I know Secretary Esper was 
over there and he was part of making the ask, so DOD is 
definitely involved. I do understand that lead. And also it is 
building up to we also have to get--renew the contract, if you 
will, with Japan as well, and I realize that is not the purpose 
of this hearing.
    But with our base on Okinawa there is rising controversy 
now over the new base that we are building. I heard about it a 
lot this past week. People are concerned about our plans for 
the base on Okinawa and the plans to build out that could 
affect the environment there. It is something we will have to 
work on. We need to maintain those relationships.
    One final question, on North Korea's tests. How do we plan 
to react going into this year if North Korea continues to do 
testing, and what is your feeling on the likelihood that they 
will ramp that up in this year? They have promised that they 
were going to do things; they haven't to date. Do you have a 
guess as to why and where that might go?
    Secretary Rood. Predicting North Korea's future behavior is 
always hazardous, as you know. I started my career as a CIA 
[Central Intelligence Agency] analyst and used to follow them 
closely, so I have some experience of being right and sometimes 
not getting accurate the prediction. But let me just say that 
we are watching very carefully what they are doing.
    We don't know fully the reasons why the North Koreans did 
not engage in more provocative behavior, which they seemed to 
be hinting that they were planning to do in December. But as 
you mentioned in your opening statement, there were a number of 
missile launches last year, short-range missile launches, which 
do violate the U.N. Security Council resolution. So there was 
clearly a message as well as a developmental activity in that 
activity.
    We could very well see some additional missile tests or 
other activities by the North Koreans, but that is very 
speculative at this stage.
    Our message to them has been that obviously we would regard 
those things as provocative activities, in an attempt by the 
State Department to get the North Koreans back to the 
negotiating table, which is what we think would be more 
constructive and productive. But certainly we have got to be 
alert for the possibility that we could see the North conduct 
those type of tests.
    The Chairman. Understood. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Mr. Rood, from a policy standpoint, would 
you say that overall the European defense fund, European 
stability fund, has been a success?
    Secretary Rood. If you are referring to the European 
Defence Fund to fund things like the Permanent Structured 
Cooperation on defense, I have had some concerns about that 
along with my colleagues in the Defense Department, because 
while on the one hand we do encourage our European partners to 
improve their defense capabilities and to invest more, there 
has been some portions of that that have been rather 
exclusionary in nature.
    And we have been engaged in a long-term dialogue with the 
Europeans about whether, for instance, would subsidiaries of 
American companies in Europe, European companies, be permitted 
to participate? What about American companies who wish to 
participate in this activity?
    So it is an ongoing dialogue that we have with the European 
Union on this matter.
    Mr. Thornberry. I think I misspoke. I was talking about the 
European Defense Initiative where we go help fund 
infrastructure. I am sorry. And that was completely my fault.
    Secretary Rood. No. No. I misunderstood, sir.
    Mr. Thornberry. And I know you don't do budgets. What I am 
trying to get at is, it seems to me, and correct me if you see 
this differently, that having a fund of money to put basically 
our money where our mouth is on these alliances and being able 
to work together has been successful in Europe.
    Secretary Rood. Yes, sir. I agree with that.
    Mr. Thornberry. And so my question is, 2 or 3 years ago 
this committee authorized a similar fund for Asia to, again, 
try to put our money where our mouth is, especially focused on 
China, but also the North Korean threat that we are talking 
about today. And yet, the administration has never put any 
budget resources into that fund.
    And I know you don't do budgets, but I am trying to 
understand why we are missing this opportunity to convey to 
allies, partners, and people we want to work with that we can 
come to you and develop a greater capability to defend you from 
missile attack or to do some other things posed by the North 
Korean threat.
    Secretary Rood. I believe the fund you are referring to is 
the Maritime Security Initiative.
    Mr. Thornberry. No. So this is Indo-Pacific Stability 
Initiative.
    Secretary Rood. Okay. Yes. I am tracking with you now, sir. 
Sorry to be slow on the uptake.
    We do support efforts to work with our partners in the 
region, and as you know, there is a large infrastructure that 
the United States maintains in that area. It is one of the 
things General Allvin and I and others are participating in 
trying to, as we always do, looking at our present locations 
and are we properly structured. Working with partners to invest 
in that area is a priority.
    Sir, I will get back to you, but there are some other 
security assistance activities that we are doing that I believe 
match what you are talking about, but I will provide you some 
more information separately, if I may.
    [The information referred to can be found in the Appendix 
on page 55.]
    Mr. Thornberry. Okay. I would appreciate that.
    The last point I would just make is, obviously Japan, 
Republic of Korea very important when we are talking about 
containing the threat coming from North Korea. But North Korea 
poses a regional threat, a number of other nations are 
interested, concerned, and it just seems to me we could do more 
to enlist their assistance.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman.
    Thank you both for joining us today.
    I want to focus for a second really on what is going on on 
the peninsula. As we know, I think you would agree, that talks 
have broken down. The North appears ready for further 
provocative action.
    So does the Department plan on restarting exercises on the 
Korean Peninsula? Can you elaborate on our current situation?
    Secretary Rood. The short--I will start, and then, if I 
may, General Allvin will continue--which is we continue--we, 
being the U.S. Government, led by the State Department--
continue to try to persuade the North Koreans to come to the 
negotiating table.
    The pace of those negotiations and when Kim Jong-un has 
engaged with the President or his subordinates with other 
officials has not always followed, as you know, a very 
predictable sort of measured pace.
    And so we continue to stay after that, and that is our aim. 
We do need to maintain our readiness, and that is something 
that General Allvin can speak to, and that is part of the plan.
    General Allvin. Thank you, Mr. Secretary.
    I agree with the Secretary, and this really needs to be 
folded into a larger negotiation piece. But from the joint 
force perspective, your point is spot on. We need to ensure 
that we maintain our readiness.
    And so General Abrams, who is the commander on the ground 
there, has been creative and ensured that of the roughly 307 
training events that are traditionally woven into larger 
exercises, through varying the size, scope, volume, and timing 
of them, they were able to execute over 88 percent of those 
actual activities.
    And so by doing it in a manner that offers some room for 
negotiation and for diplomacy and the show of good faith while 
at the same time ensuring the minimum effective readiness for 
our forces as well as the Republic of Korea forces, because we 
are obviously doing this together ensuring operability, his 
assessment is that we still have the readiness required to be 
able to respond to any aggression.
    And we think as long as we are holding up that end of the 
bargain as far as the joint force, then it does allow for 
whatever waxing and waning that the rest of the government 
would do.
    Mrs. Davis. Does it send a message though? I mean, we have 
been training on the Korean Peninsula for forever. And so that 
is what we are funding, and that is what sends a clear message, 
I think. So that is why I am just wondering, is it a real--it 
may be a substitute and it may be one that is practical at the 
moment, but I am also interested in what our plans are. Then 
how do we get back to that? How do we continue to make sure 
that we are actually doing the training where it has the most 
impact?
    General Allvin. I think the short answer is that we are 
still maintaining the readiness required. We are trying to do 
that in support of the whole-of-government approach that will 
allow the negotiations to continue and give us some more 
leverage at the table, saying we have done this, but always 
making sure that we have the readiness.
    Mrs. Davis. Are there certain conditions under which we 
would begin that again, though? I mean, in earnest of that, 
again, is the focus.
    General Allvin. I would have to refer you to General Abrams 
and the INDOPACOM [U.S. Indo-Pacific Command] commander, as 
well as the Chairman and the Secretary. But I think in general, 
as long as we maintain the foundational readiness as it is a 
part of a whole-of-government approach, we as a minimum have to 
ensure our readiness, and we are doing that right now.
    Mrs. Davis. In terms of the operating concern around 
verified denuclearization of North Korea, do we think it is 
still possible to achieve that?
    Secretary Rood. We do, although I will say from personal 
experience, early in my career I supported negotiations, for 
example, for the 1994 Agreed Framework through Republican and 
Democratic administrations over a long period of time. This has 
been an objective of ours.
    I don't think we should give up on that objective. I don't 
think that we should accept North Korea as a nuclear power and 
move on or something. I think that is a central concern of 
ours, and it is a large concern, not only North Korea's 
possession of nuclear weapons and what that means, but the 
possibility they might proliferate them.
    So I understand implied in your remarks is this is a 
substantial challenge. On that I would agree. But nonetheless, 
I think it is one that we should take on still.
    Mrs. Davis. From the point of view of negotiations as well, 
how much weight do we put into the fact that Kim Jong-un and 
other members of the Kim family have just demonstrated that 
they are going to continue to commit atrocities? And how do we 
square that with rejoining the community of nations?
    Secretary Rood. It would be a very difficult challenge, but 
it is the hand that we are offering them at this stage.
    And to be sure, the North Korean brand of socialism and 
communism is the most virulent one that has really been pursued 
around the world, even in a historical sense, if you think 
about the human rights treatment of their own people, how 
severe that has been.
    So starting from that standpoint, we won't be alone, 
though, in this regard. The ROK, as the chairman mentioned, is 
a very strong partner in that respect. We also have others, 
Japan and other nations, that would join us in that.
    The Chairman. And I am sorry, the gentlelady's time has 
expired.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    How confident are you that the ISR [intelligence, 
surveillance, and reconnaissance] assets we have on the 
peninsula are sufficient to meet the threat capabilities there?
    Secretary Rood. General Allvin may have more to add. But we 
certainly feature that in our planning, and that is a large-
scale activity, because as you well know, in a closed society 
like that, without very many people who visit the North, as 
well as, frankly, they are very protective of their 
information, and so counterintelligence capabilities by the 
DPRK are quite noteworthy, and so we do rely on standoff ISR 
for substantial understanding.
    But, General Allvin?
    So we do think that we have resources devoted that are 
adequate to that.
    But you may want to add.
    General Allvin. No, I associate myself with the Secretary's 
remarks here in that truly ISR, as this committee and most 
throughout Congress understand, is one of the things that comes 
up every year. We always want to know, since the dawn of 
warfare, we always want to know more information so we can 
deter the war, and if eventually we have to fight it, we can 
actually prevail in it.
    As we look at the distribution of ISR across the entire 
globe, and that is really how this plays out, given the 
resources that we have, we try and distribute them and make 
them dynamic enough in a way to where they can serve several 
threats, not only the North Korean threat but those posed by 
China, a revanchist Russia, et cetera, et cetera.
    And again, what I believe is interesting, but the gentleman 
on the ground, General Abrams, who is responsible for this I 
think would associate with this, in that they do have 
sufficient to maintain adequate visibility. Like everything 
else, we would always want more. But they believe that they 
have the sufficient ISR to maintain situational awareness 
sufficient to the threat.
    Mr. Rogers. How confident are you all that our troops in 
both Japan and Korea are adequately protected with the current 
missile defense capabilities architecture that we have in 
place?
    Secretary Rood. That is another area where in an ideal 
world having greater capabilities would be desirable.
    Now, when we look at the progression of the threat, clearly 
the North Koreans and the North Korean missile program have not 
stood still. And I know how closely you follow this, 
Congressman. That threat has increased in a noteworthy way.
    And so one of the challenges for us is to continue in our 
program planning to have sufficient resources devoted and the 
readiness of things, such as our Patriot force, high enough. 
That is a very high-demand asset around the world. There are 
lots of competing demands for them.
    But we live in a budget-constrained world, and so the 
debates we have inside the Pentagon at the budget season 
principally last fall can get pretty intense around this, and 
that is always one of the push-and-pull items, that be how much 
do we place there versus all of the other areas competing for 
funds.
    Mr. Rogers. Given the Chinese reaction to our basing of the 
THAAD [Terminal High Altitude Area Defense] on the Korean 
Peninsula, has that affected in any way our ability to protect 
our troops there?
    Secretary Rood. It was a disruption, but we have worked 
through the arrangements and the system is in place. The South 
Korean Government worked through some land swaps and other 
things to provide the necessary facilities. And so it is in 
place.
    I don't know if you want to add anything.
    General Allvin. I would say from the context of its ability 
to protect the forces, it certainly is an uplift to be able 
to--the situations that were worked through, through policy in 
the rest of the government and back and forth with the Republic 
of Korea, were certainly successful enough to ensure, as the 
Secretary said, those capabilities remain, and they are 
definitely an uplift with respect to protection of the forces 
in the region.
    Mr. Rogers. My last question is about shifting over to 
Guam. INDOPACOM has indicated they would like to increase our 
missile defense capability in Guam. What would that look like? 
You know, what do we as a committee need to be doing this year 
to facilitate whatever that capability would be?
    Secretary Rood. Well, presently at Guam, as you know, there 
is a THAAD missile defense battery there. Some of the 
discussions have been whether that should either be augmented 
or are there alternate ways to provide that sort of missile 
defense coverage.
    Again, THAAD, very high-demand asset. And so it is a matter 
of compared to what. And there have been some proposals 
INDOPACOM has put forward, for instance, whether you could have 
some sea-based, not placed on land, Aegis Ashore capabilities 
and things of that nature.
    Mr. Rogers. To layer that in addition to the THAAD or in 
place of the THAAD?
    Secretary Rood. Potentially as a replacement for. But a 
decision has not been made to do that. The present plan is for 
THAAD to continue in that role.
    Mr. Rogers. Okay. Thank you very much. I yield back, Mr. 
Chairman.
    The Chairman. Thank you.
    Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    Thank you both for your briefing this morning.
    We know that North Korea has hundreds of ballistic missiles 
that could hit South Korea. We know they are developing a long-
range alternative. We know they have a chemical weapons 
stockpile. They intend to develop an ICBM [intercontinental 
ballistic missile] to hit the United States. They continue to 
test missiles. And I am clueless about what our policy and 
strategy is with North Korea, besides romantic letters that are 
exchanged between our President and the leader of North Korea.
    Could you articulate what our strategy is?
    Secretary Rood. Well, first, it is to deter aggression by 
North Korea, which we do through a variety of means. As you 
know, we maintain a missile defense system. And this committee, 
of course, authorizes those activities and the funding for 
that.
    We do maintain to protect against long-range missile attack 
against the United States a substantial missile defense 
capability. There are also, as discussed, fielded capabilities 
for shorter range missiles.
    So, first, we want to deter aggression. That is not done 
merely through defenses, but also through offensive forces and 
maintaining the readiness of our capabilities to try to prevent 
that.
    Ms. Speier. Mr. Rood, excuse me for interrupting, but we 
have not deterred North Korea at all as they have continued to 
test missiles and build the equivalent of ICBMs and continue to 
have a chemical stockpile. We aren't getting them to do 
anything to reduce that. Isn't that supposed to be part of our 
strategy?
    Secretary Rood. That is. And I would add, it has not been 
merely the objective to address those threats of the present 
administration, but through my entire working career in the 
national security realm that has been the objective for 
Republican and Democratic administrations alike. So I share the 
objective.
    What I was merely trying to address is that we do try to 
deter aggression. It is a harder thing to deter the production 
and the pursuit of those capabilities, but certainly we are 
trying to do that through negotiations. And the President has 
been very clear in his desire to see a negotiated outcome for 
those things.
    We work very closely with the ROK and our other allies, 
like Japan, in the pursuit of those objectives. And a maximum 
pressure campaign undergirds, because without that pressure, 
without that element of the policy to create pressure on North 
Korea to come to the negotiating table, we do not think that a 
negotiated outcome is feasible.
    Ms. Speier. So your belief is that a negotiated outcome is 
not feasible with North Korea. So what is our next strategy 
there?
    Secretary Rood. I may have--just to clarify, I have not 
said that we do not think a negotiated outcome is feasible. We 
think without pressure the North Koreans will not come to the 
negotiating table and negotiate in an earnest way. You have to 
have both, in my opinion, and that is the approach we have been 
taking.
    Ms. Speier. And what is the pressure we have imposed on 
North Korea besides giving them the world stage on which to be 
recognized?
    Secretary Rood. U.N. Security Council resolutions imposing 
economic restrictions, and then those are enforced by different 
nations, to include the U.S.
    Ms. Speier. And we know that China is not complying with 
that, among other countries.
    Secretary Rood. We have seen China enforce the sanctions. I 
think, perhaps diplomatically, I would say we would like to see 
them do a better job of enforcing those as their performance 
has been inconsistent.
    Ms. Speier. Mr. Rood, you had been requested to appear 
before the committee about Iran and have not done so. When do 
you intend to do that?
    Secretary Rood. It is scheduled for tomorrow in closed 
session for the committee.
    Ms. Speier. Thank you. I yield back.
    The Chairman. Thank you.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Thank you both for being here and for what you are doing 
for our country.
    Given the growing North Korean ballistic missile threat to 
our homeland, I would like to ask some questions about our 
missile defense. We have asked about regional threats, but to 
the homeland there is also a growing threat.
    So, Secretary Rood, according to NORTHCOM [U.S. Northern 
Command], while we can be confident in our current GMD [Ground-
Based Midcourse Defense] posture to counter a North Korean 
threat for the next 5 to 6 years, at the rate North Korea is 
developing their ICBM capabilities we must begin assuming 
increased risk around 2025 and beyond.
    Do you agree with that assessment? And if so, whatever you 
can say in this open session, what is the administration's plan 
to mitigate that risk?
    Secretary Rood. First, I do share that assessment with 
NORTHCOM. We do have to watch the North Korean missile program 
and their associated other special weapons programs, because 
their rate of progress is very substantial and it continues.
    I think that what you will see in the President's budget 
submission that will come forward, and obviously it has not 
been submitted to the Congress yet, but I think what you will 
see is a continued support for our missile defense program. 
That is embodied in the policy document called the Missile 
Defense Review that the President unveiled. And it states very 
clearly in there that our objective is to prevent North Korea 
from having the ability to coerce or threaten the United States 
credibly with their offensive missile force and commits us to 
having a defense sufficient to deal with that threat.
    Mr. Lamborn. Okay. Thank you.
    I would like to drill down a little bit more and talk about 
an underlayer.
    According to warfighters at NORTHCOM and the engineers and 
scientists at Research and Engineering, an underlayer composed 
of the SM-3 IIA or Extended-Range THAAD would be an excellent 
complement to our current GMD and help address the growing 
threat, not just of North Korea but Iran also.
    So do you believe an underlayer would supplement our 
homeland missile defense and help mitigate the risk that we 
have talked about that is growing beyond 2025?
    Secretary Rood. I do think such an underlayer can make a 
substantial contribution to the defense of the United States. 
It is not a replacement for longer range missile defenses, 
which have a much greater capability through things such as the 
ground-based interceptors presently deployed in Alaska for much 
larger range, longer battlespace, if you will.
    But certainly an underlayer can make an important 
contribution to defense of smaller areas, still very large 
areas, but smaller than that provided by the ground-based 
interceptors in Alaska.
    Mr. Lamborn. And to help make this supplement come about 
and become real, can you explain why the SM-3 IIA test against 
an ICBM target planned for later this year would be so helpful 
to mitigate the risk posed by North Korea's ICBM threat?
    Secretary Rood. As you mentioned, Congressman, that test is 
planned. The Missile Defense Agency will conduct it to validate 
what the analysis presently shows, that the SM-3 IIA would have 
a capability against longer range missiles if enabled by all 
the right sensors and in the right situation.
    And so that is an important demonstration or validation of 
the capability that we already believe is resident in the 
system. But having been through a number of test cycles, it is 
always important to be on the test range and validate that, 
sir.
    Mr. Lamborn. Well, I am glad to hear that because, as you 
pointed out, this would be a supplement, not a substitute, but 
a supplement to what we need to beef up in our ICBM missile 
defense program.
    Thank you so much, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chairman.
    This question is for Mr. Rood to begin.
    How does Korea and the USFK play into our deterrence plans 
against China?
    Secretary Rood. Well, principally those organizations are 
focused, of course, on the threat from North Korea, but 
obviously having a U.S. military presence on the Korean 
Peninsula, and more importantly an alliance, a relationship 
with an important country like South Korea, plays an important 
role in trying to counter the spread of malign influence from 
China. And just in general, having more allies committed to the 
same type of values is quite important as we enter a long-term 
competition with China.
    Mr. Gallego. So we can certainly say that the 30,000 
American troops that we have there provide a deterrence to 
China then in addition to obviously a deterrence to North 
Korea?
    Secretary Rood. Their principal role is not oriented 
towards China or a set of military plans to counter China's 
advancement. They are really more focused on the North Korean 
threat.
    But secondarily, obviously, having this kind of military 
relationship with the Republic of Korea is quite important in 
its own regard for our influence with respect to China.
    Mr. Gallego. I am troubled that our Special Measures 
Agreement negotiators appear to be focused on the cost of our 
presence in Korea not the value of our mutually beneficial 
alliance. What is the policy strategy for articulating the 
value of the alliance within the administration?
    Secretary Rood. Well, I agree with you that the alliance is 
very important. This has been a foundation of our defense 
strategy in that region, and I think we in the Defense 
Department are very committed to maintaining the quality of 
that relationship.
    We have pointed out to our ROK allies that we consider our 
alliance commitments to be ironclad, that this is an area, and 
as we say, and it is not just a saying the Koreans use, we also 
say we go together in terms of our approach.
    And so the Special Measures Agreement negotiations led by 
the State Department, the objective is to have a more 
equitable, a larger share of the burden of the cost borne by 
the South Koreans. But certainly we don't want that to 
undermine the value of the alliance.
    Mr. Gallego. And just to continue following up, what are 
the ramifications of the Special Measures Agreement expiring in 
the coming weeks? And how do these possible steps affect our 
strategic planning going forward?
    Secretary Rood. Well, one of the issues is, of course, 
there are thousands of employees that are provided and funded 
by the South Korean Government who come to our U.S. military 
bases and provide many of the services and functions. And so if 
an agreement is not reached, the funding for those people would 
begin to dry up and we would have to see furloughs, which 
obviously has an effect on base operations, to state the 
blinding flash of the obvious. And so we are concerned about 
that. We are monitoring that quite closely.
    We have been through this before in previous rounds. This 
is the 11th Special Measures Agreement. They have been tough 
negotiations at times in the past. And so the real solution is 
we have got to, as allies, hammer this out and get a durable 
agreement going forward.
    Mr. Gallego. Thank you, Mr. Rood.
    General Allvin, I have had conversations with USFK and 
PACOM [U.S. Indo-Pacific Command] about munition stocks around 
the INDOPACOM AOR [area of responsibility]. What is the current 
state of our munitions stocks in theater right now?
    General Allvin. Congressman, if I could maybe take the 
balance of that into the closed session.
    Mr. Gallego. That is fine.
    General Allvin. What I would say in general is, as often 
comes up in the budget requests, obviously munitions continue 
to be highlighted.
    I would say that across the globe we always try and balance 
the distribution of those munitions across the globe consistent 
with the threat. So as munitions move into or out of the 
INDOPACOM theater, into other theaters, those decisions are 
taken with the full gravity that they imply, and that is with 
the consultation of all the combatant commanders, of the Joint 
Chiefs, of the Chairman as he proposes to the Secretary, to be 
able to balance the best distribution of those based on 
indications and warnings, the elevation and waxing and waning 
of threat.
    So I would say that that distribution is something, given 
the scarcity and importance of all of those munitions in a 
global threat environment, that is constantly revisited. And it 
will be different this week than it will be in a month from 
now.
    Mr. Gallego. Okay. Thank you. I yield back my time.
    The Chairman. Thank you.
    Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    In your testimony, Mr. Rood, you talk about how North Korea 
is modernizing their conventional weapons as well as nuclear, 
chemical, biological, and you say over the past decades they 
prioritized increasing the range, survivability, complexity, 
and lethality.
    I was just wondering, what is the role or do you see any 
role in Iran helping them with these modernization efforts?
    Secretary Rood. We have not seen Iran providing noteworthy 
assistance to the DPRK in that regard.
    Mrs. Hartzler. Okay. That is good.
    General Allvin, I wanted to visit with you about some 
specific capabilities. I had the opportunity to visit the South 
Korean Peninsula a couple years ago. I was very interested to 
visit with the Eighth Army.
    Of course, I represent Fort Leonard Wood, which is the home 
to the Army's Engineer School. And I was very interested in the 
presentation they presented there about the subterranean 
fighting, which may be a reality if we were ever to get into a 
conflict with North Korea.
    And there were some concerns with those missions at the 
time. Obviously a very dangerous mission. We hope and pray we 
never have to do it.
    But what are we doing to improve the subterranean training 
and ensure readiness for fighting in that type of environment? 
And what is your level of confidence in our current ability to 
fight in a subterranean environment? And basically, are we 
prepared?
    General Allvin. Congresswoman, this probably won't be the 
last time today, but you probably do have me at an information 
disadvantage of this. So if I could take that for the record, 
because I am not fully witting of all of the depth and breadth 
of the challenges there, and I wouldn't want to speculate 
without giving you a better, more fulsome answer. So if I could 
take that for the record, I would appreciate that.
    [The information referred to can be found in the Appendix 
on page 55.]
    Mrs. Hartzler. Sure. It is important questions. I look 
forward to receiving that. Thank you very much.
    I wanted to ask some questions about China. Some of my 
colleagues have asked similar questions. But just overall, what 
is the Department's assessment of the North Koreans' current 
relations with both China and Russia?
    Secretary Rood. The North Koreans enjoy a closer 
relationship with China than with Russia, but both they 
maintain friendly relations with.
    With respect to their relations with China, we obviously 
don't know all the insights, and that waxes and wanes depending 
on a variety of factors, from what we can assess.
    But the nation that North Korea depends on most for their 
economic well-being, for their assistance is China. The nation 
on Earth with the greatest influence is China by far. And so 
one of the constant areas of discussion between the United 
States Government and the Chinese Government is about the 
degree to which they are prepared to use that influence in 
Beijing towards what they say is a shared objective.
    But we have a long history on North Korea, as you know, 
with China from being on opposite sides of the Korean War, and 
so we sometimes see those questions differently based on that 
history and also a different perspective.
    But from our point of view, they maintain a rather close, 
from what we can tell, generally positive relationship in China 
with North Korea.
    Mrs. Hartzler. So Representative Speier alluded to it, but 
as far as the economic sanctions, that is our main lever right 
now we are trying to use against them to get them to come to 
the bargaining table. China is such a key to that. How much are 
they helping with that or how much are they undermining the 
sanctions?
    Secretary Rood. China has helped in the sense that they do 
enforce the U.N. Security Council sanctions on North Korea. 
However, we have been concerned that the enforcement has not 
been at times stronger, it has not been consistent. It is fair 
to say this is an ongoing area of concern that we have about 
the performance of the Chinese Government in this regard.
    And so from our point of view, we would like to see China 
step up and do much more in that area because, one, we really 
do think they have this level of influence. And two, you look 
at the border, you look at the amount of trade, you look at the 
ties between trading companies and others, that is where we 
would like to see China use its abilities, and we think they 
have got an international obligation to do so.
    Mrs. Hartzler. Are they currently reaching out to North 
Korea and trying to get them to come to the bargaining table?
    Secretary Rood. That is our understanding, although, again, 
we don't have complete insight into those activities. And our 
State Department is the principal ones talking to the Chinese 
Government about that. They would have a little bit better 
understanding. But my understanding is that, yes, the Chinese 
Government has encouraged the North Koreans to come to the 
negotiating table.
    Mrs. Hartzler. In my final 15 seconds, any insights on 
having Japan and South Korea come together on that intelligence 
sharing?
    Secretary Rood. We have tried to be very direct with both 
our allies that we think it is in all of our interest that this 
relationship between the ROK and Japan be much better than it 
is right now. There have been some tremendous strains on that 
relationship.
    We were pleased, and we weighed in very heavily in this 
area, that the agreement you are mentioning allows for 
intelligence sharing between the two of them. At very late in 
the hour, the ROK agreed to suspend their desire to withdraw 
from that agreement. So the agreement still exists.
    The Chairman. And I am sorry, the gentlelady's time has 
expired.
    Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair.
    Secretary Rood, it is no secret that China is North Korea's 
lifeline, as they are the regime's trading partner and provide 
essential food, crude oil, and financial investments.
    What is your assessment of the level of influence China has 
on North Korea's decision making and the development of their 
ballistic missile program?
    And two, can you provide an update on the Department's 
efforts to work with the Chinese in upholding the international 
sanctions that you referred to earlier on North Korea?
    Secretary Rood. Yes. First, you are correct, China does 
enjoy a very close relationship or a close trading 
relationship, economic relationship with North Korea. They are 
their closest friend in the world and the one that has the 
greatest influence.
    With respect to persuading China to use that influence from 
the Defense Department, we do engage directly with Chinese 
officials. For instance, the Secretary of Defense meets with 
his counterpart. We have up and down the chain other 
agreements. We have just recently sent a member of my team to 
China to try to work out a schedule for those things for the 
coming year.
    So that is important. The message we give them is one that 
if China wants to be a leader in the world, if they want to be 
seen as a responsible stakeholder, this is an opportunity for 
them to step up.
    We have pointed out areas where we think China has not 
always met their obligations and not always enforced the 
sanctions. And so these are direct conversations, shall we say, 
that we also have.
    The Chinese Government is not particularly pleased with 
some of the sanctions enforcement that we do out of Japan with 
not only U.S. military assets but, as I mentioned, eight other 
countries joining in that effort, but this is the nature of the 
dialogue we have with the Chinese.
    Mr. Carbajal. Thank you.
    General Allvin, the relocation of Marine Corps Air Station 
Futenma is an important component of the realignment strategy 
of U.S. forces in Okinawa to other locations in the INDOPACOM.
    How has the Department engaged with the Government of 
Japan--and especially with the local government in Okinawa--to 
address local concerns that continue with the relocation of the 
air station and the continued presence there as well?
    General Allvin. Congressman, I can start that, but I will 
say the gentleman to my right has done a tremendous amount of 
work on that with the Japanese.
    Having said that, it is highly important, it is very 
important, and the INDOPACOM commander, Admiral Davidson, has 
invested lots of time and energy into ensuring that those local 
concerns are not only fully understood but we are responding to 
them as well.
    And we continue to relook at how we might be able to alter 
the posture in a way that adapts to an evolving Chinese threat, 
while at the same time holding true to the commitments that we 
have made to Japan as such a very close and vital ally in the 
region.
    But specifically to getting to those facilities and the 
local concerns, there has been significant energy expended. I 
know that--I will turn it over to Secretary Rood--but he and 
his team across the Department with respect to policy to 
ensuring all the way up to Mr. Abe understand that we are 
respectful of and are committed to the concerns of the 
leadership at Okinawa and throughout Japan.
    I don't know, sir, if you have anything.
    Secretary Rood. I would just simply add that, as you noted, 
it is a very sensitive area, that British understatement, I 
mean it is extremely sensitive in that area, the performance of 
our troops, safety concerns, behavior off base. So there is a 
whole number of ways, and we work very closely with the 
Government of Japan in pursuit of that.
    And as mentioned by one of your colleagues, there is 
substantial construction underway on things like the Futenma 
replacement facility that would allow us to adjust our posture 
to something we think is more sustainable. And we have reached 
agreements with the Government of Japan with respect to future 
plans and the activities there. But it is a very sensitive 
area, and we try to take that quite seriously.
    Mr. Carbajal. Thank you.
    Mr. Chair, I yield back.
    Mrs. Davis [presiding]. Thank you. The gentleman's time is 
up.
    Mr. Scott.
    Mr. Scott. Thank you, Madam Chair.
    Gentlemen, thank you for being here today.
    Four years ago, this committee was addressed by some of our 
military leaders under then President Obama prior to the 
election, and those military leaders are still with the current 
administration. They advised us that the situation in North 
Korea would come to a head under the next administration no 
matter who was elected President.
    And so I am thankful that, while some might want to 
question President Trump's negotiating style, I am glad that 
coming to a head didn't mean going to war in North Korea.
    I do want to mention, while I have you, General Allvin, 
that I read the article from Lieutenant General Wesley where he 
was quoted as expressing concerns about the command and control 
aspect of new platforms that the Air Force is offering.
    And while we talk about ISR and the needs for ISR on that 
peninsula, ISR in and of itself doesn't do a whole lot of good 
without the command and control aspect. And I am extremely 
concerned about the lack of progress with command and control, 
the command and control aspect of ABMS [Advanced Battle 
Management System]. So I will just mention that while I have 
you here.
    My question for both of you gets to President Moon's 
transition, his goal of transitioning wartime operational 
control to South Korean military forces by 2022, which seems to 
me to be a very short timeline. There are some agreed-upon 
benchmarks that seem to be moving slowly.
    They currently--South Korea currently, as has been 
discussed, bears only approximately a third of the cost 
associated with stationing U.S. forces on the Korean Peninsula. 
I certainly think that it is reasonable to ask that a larger 
share of the fiscal cost of the country's security than a third 
be borne by them.
    But for both of you, do you see a push to transition the 
operational control by 2022 as realistic based on the current 
ROK defense investments? And can you describe the future state 
of U.S. force employment in the Korean Peninsula if--if--
operational control is fully transitioned to the Republic of 
Korea leadership?
    General Allvin. Congressman, I will start and then let 
Secretary Rood really expound on it.
    But, first, I didn't want to let your first comment go 
unreplied upon with respect to the ABMS and General Wesley's 
concern.
    I am currently in a joint position. I understand I am 
wearing a blue uniform. But I would say that the Chief of Staff 
of the Air Force has responded to that positively and is 
committed as helping to lead the Department into this joint 
all-domain command and control, to understand General Wesley's 
concern that it get all the way down to the soldier to the 
tactical level, to your point.
    It is not really intelligence, surveillance, and 
reconnaissance unless it has applicability. And so I would just 
like to impart that comment as it is being taken very 
seriously, because we cannot do this halfway. This is so 
important to the way we are going to do joint warfighting in 
the future.
    To transition to the subject of the OPCON [operational 
control] transition, my only real statement would be that while 
2022 is a goal, this truly is conditions based. And along with 
those conditions, there need to be the development of those 
capabilities, the assessment of the quality of the employment 
of those capabilities, the continued interoperability.
    And so there are measures put in place along the way to 
ensure that we don't rush to a situation that would impact the 
readiness or the capability with an OPCON transfer. And so 
while the timeline may say 2022 as a goal, fundamentally it 
really is the conditions driving the pace, and those conditions 
have to fundamentally be underpinned by the deterrence and the 
response and the ability to respond to the aggression 
capabilities.
    Mr. Scott. Are you in agreement with that?
    Secretary Rood. I am. The thing I would underscore is our 
policy is that this is conditions based. Once capabilities have 
been attained and demonstrated then we can, if you will, check 
that off. And once all of the conditions are attained, wartime 
operational control can therefore transition to the ROK.
    Mr. Scott. Hopefully, that will never happen. But if it did 
happen, I expect that the U.S. would in the end be the lead. I 
mean, we are the ones that have the air power. We are the ones 
that have the command and control aspect of things. We are the 
ones that have the weapon systems that it takes to win in that 
scenario. And to give operational control of that to another 
country's commanders in that timeline is very concerning.
    The Chairman. Thank you.
    Mr. Kim.
    Mr. Kim. Hi. Thanks for coming out today.
    I just wanted to dive into a few details, and just help me 
understand the current strength of the alliance and next steps 
here.
    So, Secretary Rood, I just wanted to ask, for you, what is 
the total annual cost most directly associated with having U.S. 
forces on the Korean Peninsula?
    Secretary Rood. Well, first, it depends on which costs you 
include, as you well know. But as we look at those costs, those 
were a factor in going into the State Department's position in 
the Special Measures negotiations.
    I would have to get from the comptroller the specific 
numbers. I cannot quote them from heart for you. But certainly 
we have that.
    Mr. Kim. Well, look, that would be a huge help. So if you 
do not mind, would you be able to commit to getting us those 
numbers in the next 2 weeks, delineated by military service as 
well as appropriation categories? That would just be helpful 
for us to be able to understand where this is coming from.
    Secretary Rood. I will take the request back. I cannot 
commit the comptroller to anything in particular, but I 
certainly understand the request, sir.
    Mr. Kim. Sure. Look, I mean, it would be helpful for us. I 
mean, as you just said in response to an earlier question, you 
are trying to find an agreement here about sharing that burden. 
You are saying that you wanted the Republic of Korea to take on 
a larger share of that burden. I am just trying to get a sense 
of what the overall burden is, what is it that is here.
    I think we all share that belief and that goal that you 
have in your testimony about wanting to make sure that our goal 
here is to really strengthen the alliance. I think those were 
your words and your testimony. I agree with that 
wholeheartedly, and I really want to make sure that this 70-
year alliance is strong for the next 70 years.
    It is, as mentioned by many of my colleagues on both sides 
of the aisle, at the heart of our efforts vis-a-vis North Korea 
as well as China. And I want to make sure that this is being 
done in a way that is fair for all, fair on our side, fair on 
their side, and that we treat our allies and our partners with 
that type of respect.
    So I am just trying to get a better sense of that, and it 
would be helpful for me to be able to understand the State 
Department's negotiations, as well as what the Defense 
Department shared with the State Department in terms of what 
that larger burden is. I look forward to hearing back from you 
on that.
    And I will yield back the balance of my time.
    Secretary Rood. The brief response I would just add is that 
obviously the State Department leads the negotiations and the 
negotiating strategy, but we do try to impress on our 
colleagues there just the importance of this alliance. And it 
is a combined force in wartime. It is not the U.S. fights over 
here and the ROK fights over there. The way we have organized 
ourselves requires us to have this interoperability, and beyond 
interoperability, to be able to fight together.
    And so the foundation to all that is the agreements that we 
reach as to our presence on the Korean Peninsula and how we are 
going to be allowed to operate and, of course, things like 
burden sharing. And burden sharing doesn't come just down to 
just dollars and cents, obviously. The Koreans have a very 
large commitment that they make to the funding of their Armed 
Forces, to the size of their Armed Forces, to the capabilities 
they procure.
    So I agree with you on the importance of that. And this is 
part of our message to our State Department colleagues, that as 
you are approaching these negotiations, and everyone wants 
equitable burden sharing, some consideration just needs to be 
given about maintaining the health of that alliance as we go 
forward.
    Mr. Kim. Well, look, I get that. And I understand that the 
State Department is leading these negotiations. But obviously 
you are at the table there as well. And there was a recent op-
ed in The Wall Street Journal that was coauthored between 
Secretary Esper and Secretary Pompeo. They were on the same 
page on that front.
    So I just want to make sure that this isn't just something 
about trying to convince the State Department about this aspect 
of it, this was something that was very much in line between 
the two Secretaries.
    The Chairman. And if I could just put the emphasis, it 
certainly publicly seems like it has been a very joint State 
Department-Defense Department position. I understand that at 
the end of the day the State Department signs off on it, but it 
seems like you guys have been right there with them. So I just 
want to amplify Mr. Kim's point and our concerns.
    Secretary Rood. We are partnered, and ultimately not just 
the State Department and ourselves, but the National Security 
Council and the President have formed up a unified position 
that we are pursuing, yes, sir.
    Mr. Kim. Chairman, I yield back.
    The Chairman. We are just asking you to keep the State 
Department in line, as always.
    Mr. Gallagher.
    Mr. Gallagher. This week the Air Force Chief of Staff said: 
If I have to defeat China we can handle Iran. If we build a 
force to defeat Iran, we cannot defeat China.
    Mr. Rood, in your opinion, does that same logic apply to 
North Korea and China?
    Secretary Rood. We have to have a force that can do many 
different capabilities. I will say the long-term threat that we 
are most concerned about is the threat from China and followed 
by Russia. In the near term, perhaps Russia is more lethal.
    But North Korea is not going away. And as mentioned earlier 
in the hearing, these different activities can occur 
simultaneously and we are witnessing that today.
    So actually this tour of mine in the Pentagon as compared 
to one when I was there 16, 17 years ago, that is one of the 
things I feel every day, is the degree to which this highly 
dynamic, highly concerning security situation, that there are a 
number of big actors and pulls on us that can occur at the same 
time.
    Mr. Gallagher. So if I could paraphrase that, it seems you 
are suggesting we have to be able to do both?
    Secretary Rood. We have to have the ability not to be 
completely occupied with one thing at a time, but to have the 
ability to look in other areas of the world as well, if that is 
what you mean. I think we have to have a force that is capable 
of that, yes.
    Mr. Gallagher. And that is the question we will confront on 
this committee over the next year, is how can DOD do both well? 
How can we confront two regional hazards with a ``fight 
tonight'' posture versus 15-year or longer competitions with 
China and Russia while the Defense Department budget flatlines 
for 2021.
    I would suggest that that is impossible if it, indeed, 
flatlines, and we will have to make very tough decisions about 
how to increase and build upon the progress we have had in the 
last 3 years.
    Secondly, it is reported that we have deferred or canceled 
about 13 exercises with South Korean partners as part of 
negotiations with Kim Jong-un. In your opinion, Mr. Rood, what 
is the impact of the lost training opportunities on the U.S. 
and ROK capabilities to deal with North Korea as a result of 
those canceled training exercises?
    Secretary Rood. In support of diplomacy there have been 
some adjustments, as mentioned, to our training and exercise 
program. General Allvin went through and can cite some of the 
statistics about how the U.S. Forces Korea commander is 
assessing the impact. And he is really the one that needs to 
make the value judgment about readiness and how it has been 
impacted.
    But certainly we have made some of those adjustments, I 
would say, to try to create the right conditions in support of 
our colleagues at the State Department in the diplomacy.
    Do you want to add on the readiness?
    General Allvin. I would just agree with the Secretary in 
that, qualitatively, it is an easy statement to make, that 
obviously if you do less activities then there is some degree 
of lesser value that you can get out of the fewer activities.
    However, General Abrams' reasoned judgment and his staff's 
analysis of the risk associated with those, with the remaining 
activities they were able to accomplish, the way they were able 
to alter them in sort of the size, scope, and volume and 
timing, his assessment is they still believe that they are able 
to maintain that level of readiness.
    So it is, like I say, qualitatively, you can say that more 
is always better, it seems like. But as long as you can retain 
your ability to have that deterrence value and the confidence 
in your ability to be able to respond to aggression, yet while 
making room--successful or non-successful, that is not our job 
in the military--making room for potential diplomatic 
breakthroughs or shows of good faith in other elements of 
government, then that I think is the responsible thing. And 
General Abrams believes that we can still ----
    Mr. Gallagher. And then quickly, Under Secretary Rood, 
how--you described--you referenced this briefly in your 
testimony--how exactly, what was the nature of the economic 
coercion that China used against the Republic of Korea during 
the THAAD decision? And do you expect them to use a similar 
form of economic coercion as other allies in the region make 
difficult decisions about basing and interoperability with us?
    Secretary Rood. What we observed China do with respect to 
Korea is some slowdowns in trade, punishments in sort of the 
ability of Korean companies to operate in China itself, a range 
of those activities where it certainly appeared very coercive 
towards the Koreans.
    The Koreans did not flag throughout that, as you know, and 
we presently have THAAD deployed in the Republic of Korea, 
which is a testament to the strength of the alliance, that they 
also see the benefit to that.
    In terms of your question of whether China might use 
similar tactics with others, it is possible. Certainly, we have 
tried to discourage them from that kind of activity. But, 
unfortunately, as one of the tools of sort of Chinese 
statecraft, we do see them using economic coercion, not just 
with respect to basing of U.S. military facilities, but for a 
whole range of activities around the world.
    Mr. Gallagher. My time has expired.
    The Chairman. Thank you.
    Ms. Horn.
    Ms. Horn. Thank you.
    Thank you, gentlemen, for being with us today. We are 
addressing some incredibly important and complex issues.
    Following up on my colleague Mr. Kim's conversations that 
relate to cost sharing, but turning our attention to our troops 
and to the readiness of our deployed troops in this region. As 
one of our major allies, South Korea, we have 28,500 troops in 
the region, and their presence, of course, I think has been 
vital to ensuring that we are continuing to address this 
volatile area and situation.
    What I would like to ask about is an update on the 
readiness of these troops and the future challenges of our--the 
regional forward-deployed troops in this area.
    General Allvin. Yes, Congresswoman. I could not agree more 
with the emphasis on readiness. That really is the key. And as 
the Defense Department and the joint force as a whole looks to 
support the overall administration and whole-of-government 
approach, that readiness has to underpin that.
    And so as I previously mentioned, when taken at its core 
level, there were activities that were planned that were seen 
to be critical to enable the readiness. They used to be 
packaged differently, and they used to be put together in time 
and space differently, but through some creative 
reconfiguration, et cetera, General Abrams, along with his ROK 
counterpart, because these are exercises that are largely done 
together, of the 309 planned activities, they still completed 
273 of them.
    And that was sufficient, in General Abrams' mind and in the 
mind of the CFC [Combined Forces Command] together, that was 
sufficient to retain the required readiness while at the same 
time presenting the baseline to at least enable some of the 
diplomatic off-ramp opportunities through that sort of open 
hand to North Korea to exist.
    So it is always unclear whether that is going to be the 
thing that helps the negotiations piece, but bottom line, just 
know that General Abrams, if he felt like he was not being able 
to achieve the readiness to accomplish the mission for which he 
was assigned, he would certainly come up voicing and we would 
be hearing about that.
    Ms. Horn. Following up on that, facing North Korea, which 
has one of the--the most significant number of their troops 
forward deployed in that area, I just want to reiterate the 
importance of ensuring that we invest in the readiness and the 
preparedness while also exploring these other options.
    And to that end, Secretary Rood, I would like to follow up 
on the other options about addressing North Korea's continued 
progress and seeking of increasing nuclear options.
    In the context of China, we have talked about a number of 
things today, but beyond economic sanctions, beyond the 
pressure that we are placing on North Korea, what are the 
options of bringing in China? Is there really a pathway? And 
what other options are we looking at in terms of leveraging the 
pressure against North Korea to get them to come to the table?
    Secretary Rood. Well, the discussions with China have been 
around, what is our shared objective? And they do say that they 
support--in China--that they support the denuclearization of 
the Korean Peninsula. And they have tried to persuade the North 
Korean Government to come in earnest to participate in the 
negotiations.
    You know, again, I have a long history of watching this, 
and that has been a goal for the 30 years I have been working 
in this area of respective administrations, and it has always 
been elusive to get China more involved. I think the largest 
effort we made was during the Bush administration where China 
hosted the Six-Party Talks, with the idea of trying to get them 
to be more invested. It worked somewhat, but, frankly, in some 
ways they played the role of a mediator and not an active 
participant in the way that we wanted at that time.
    So there have been pressures placed upon the Chinese 
Government by the U.S. Government in different ways to try to 
encourage stronger implementation. As I mentioned, we have got 
an Enforcement Coordination Cell and aircraft and ships in and 
around the environment in North Korea, which is not something 
the Chinese Government finds pleasing. It is one of the areas 
of friction that they point out that we are operating in that 
area, but we point out smugglers are drawn to areas in which 
the enforcement is not as strong as it should be, and certainly 
a role for China to play that could improve that situation.
    So we do try to do that. And it is not merely limited to 
China. And your question was, what else are we doing? We have 
gone around the world to try to persuade countries to tighten 
up their enforcement of all sanctions, but in particular those 
things that can aid North Korea's special weapons programs.
    Ms. Horn. Thank you. My time has expired.
    The Chairman. Thank you.
    Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman.
    And I want to thank you both for being here. And I have 
four questions, I guess, if I can get them all in.
    But before I do I want to recognize General Allvin. We have 
served together since 1997 and multiple times thereafter, and I 
can just tell you the Air Force has done it right. They have 
promoted a stellar performer and have reached up.
    So it is good to see you again.
    My first question is for Secretary Rood.
    Can you compare the South Korean contributions to help 
offset our costs, say, with, like, Germany, England, or Japan? 
Is it comparable, more or less?
    Secretary Rood. It is comparable in the sense that they 
provide a substantial offset. They provide, for instance, the 
Yongsan Relocation Plan, which was consolidating a number of 
U.S. facilities, the ROK bore the cost of that. So that was 
certainly in a rough sense.
    They are structured very differently in terms of how the 
ROK provides that support versus the benefits we receive from 
the governments in Germany or elsewhere. But in sort of the 
most coarse sense, there are similarities to that support.
    Mr. Bacon. This seems, looking at the strategic picture, 
China is nearing our GDP [gross domestic product] in 
capability, with 1.4 billion people. Then we have Russia. We 
have to deter Iran. We have also North Korea. We are still 
fighting with al-Qaida and ISIS [Islamic State of Iraq and 
Syria].
    We can't do this on our own. And to counter and be a leader 
of the free world, it is going to take more support from our 
allies and a more integrated approach. And granted it is a 
tough diplomatic dance we have to have with our friends, but if 
we are going to have the free world defend our values, human 
dignity, it is going to require more from our friends.
    One other question on South Korea. Obviously, our military 
relationship is focused on North Korea. Do they see that they 
have any responsibility with us vis-a-vis China and being a 
deterrence towards them?
    Secretary Rood. First, I agree with you on the importance 
of allies stepping up. And we are asking allies around the 
world, not just in the ROK, to bear more of the burden.
    And then with respect to your point about the role the ROK 
can play with China, they certainly can play a noteworthy role. 
And we talk very seriously with them about the emerging dangers 
we see there from China, the threats, the way the Chinese 
Government is behaving economically, politically, militarily. 
So that is a feature of our dialogue.
    Certainly, they have a different perspective on that, given 
where they are at in their trading relationship and other 
things with the PRC [People's Republic of China]. But, I mean, 
I think there is a lot of commonality in our thinking about 
what we are concerned about and the threat to our values as 
well.
    Mr. Bacon. Hopefully, our relationship will evolve to 
include more of that, not just the North Korea, would be my 
point.
    General Allvin, two questions for you. We are talking about 
the training or the reduction in training, the integrated 
larger training in South Korea with our forces. Do we see 
reciprocal reduced training from North Korea? I mean, are they 
doing the same thing?
    General Allvin. So, Congressman, first, thank you for your 
kind comments, and I hope my responses don't change your 
opinion on the other side of this.
    Mr. Bacon. I will let you know in about 2 minutes.
    General Allvin. But in point of fact, at this point, to 
date we have not seen that. We have not seen that. So, 
obviously, the return on investment that we are looking for, 
perhaps a reciprocation, it hasn't been an appreciable amount, 
which is why, whatever level we continue in, we want to ensure 
we do not go any further below the readiness.
    So while the payoff is not what we would like, the cost is 
worth the burden that we bear in trying to enable other 
negotiations.
    Mr. Bacon. So I would recommend to the administration, say, 
if we are going to do a continued reduction in large training, 
the North Koreans should reciprocate. That should be a part of 
our back-and-forth negotiating with Kim Jong-un, it would 
appear to me.
    But my final question is, I know in a phase III, phase IV 
environment--this is again for the general--we are going to 
need fifth-generation, eventually sixth-generation type 
aircraft stealth. But our day-to-day operations in Korea today, 
phase zero, phase I, how dependent are you or are our forces on 
the legacy, say, ISR platforms for what we need day to day 
today?
    General Allvin. That is, unfortunately, a more complex 
question than for 30 seconds. But your point is really spot on, 
Congressman, in that today we are maximizing what we have with 
respect to, as we call them, the legacy ISR systems.
    I think as we start to talk about evolving to fifth-
generation and sixth-generation sensors and shooters with 
respect to lethality, if we don't match that with creative ways 
in the way that we conduct our ISR in a way that will match the 
speed of war going forward, we will be beyond the power curve. 
So when we think about speed, lethality, fifth generation, 
sixth generation, it can't just be with pointy-nosed aircraft, 
if you will.
    Mr. Bacon. Thank you.
    Mr. Chairman, I yield.
    Mr. Langevin [presiding]. Ms. Houlahan is recognized.
    Ms. Houlahan. Thank you, Chairman.
    And thank you, gentlemen, for coming. I have two questions, 
so I do not think I will be able to take up the entire 5 
minutes, but I would love to hear from you specifically about 
biological and chemical weapons and the capabilities of North 
Korea in that area.
    My understanding is we spend a lot of time focused on 
nuclear capability and the threat that is behind that, but that 
we do not necessarily have the same understanding nor do we 
spend the same amount of time appreciating chemical and 
biological capabilities.
    Can you comment, if you are able to in this setting, on 
what we are doing to make sure that we understand those threats 
as well?
    Secretary Rood. North Korea maintains very substantial 
capabilities in both the chemical weapons area as well as in 
the biological area. And this is a very noteworthy concern of 
ours, both in terms of from an intelligence prioritization 
perspective--and in the closed session, obviously, we can speak 
in greater detail--but in the open session, certainly to say 
this has been a longstanding concern.
    It is a concern about the capability and the effect it 
could have on U.S. and South Korean or other responding 
nations, and that is something we try to train for, exercise 
for, appropriate protective gear. And in the biological area, 
obviously, the concern, as we are seeing with the coronavirus, 
what begins in one place can rapidly move to others.
    But it is emblematic of the type of regime we are dealing 
with, that these are the type of capabilities that we have 
worked through a series of agreements around the world with 
friendly nations to abolish but has not taken.
    Ms. Houlahan. Thank you.
    General, do you have anything to add?
    I would love to ask those same kinds of questions in the 
closed setting as well and understand if there is anything that 
we should be doing, and do have not only a concern about 
chemical and biological weapons, but also, as you mentioned, 
chemical and biological issues of disease that we have no 
intention of thinking about from a military perspective.
    My second question has to do with what appears to be an 
open source evidence of two tests that were conducted on 7 
December and 13 December. Commercial satellite imagery appears 
to reveal that this happened, on the Sohae Satellite imagery as 
evidence that this happened.
    I know that you cannot confirm that this has happened, but 
I am curious what your thoughts are on what the implications 
would be for our future relationships and future negotiations 
if this, in fact, did happen.
    Secretary Rood. And the tests you are referring to, 
potential missile tests?
    Ms. Houlahan. Yes, exactly.
    Secretary Rood. Certainly, when we look at what the DPRK or 
North Korea is doing in the missile area, we remain concerned 
about progress in their missile program. Last year, they did 
conduct a number of tests of short-range ballistic missiles, so 
flight tests. That is prohibited by the U.N. Security Council 
resolutions, but clearly the North Koreans had a message in 
mind with those tests and we have received the message. In case 
anyone is watching in Pyongyang, no need to send it again, we 
got the message.
    But those things are concerning, and we need to have the 
appropriate defenses in place, the capabilities, we have to 
have the forces trained and equipped to handle that, with the 
aim of deterring and, if necessary, defeating it. And it is not 
merely through defenses. Obviously, offenses would play a role 
in responding to such an attack.
    So we have to monitor that. We also go through a number of 
steps where we support the State Department and others to try 
to choke off supplies of the technology that could aid that 
sort of progression of North Korea's missile program. There are 
a variety of international regimes and activities. We work with 
suppliers around the world to try to impede the flow to North 
Korea.
    General Allvin. I would just add, as one would characterize 
what those missiles, missile tests, if they happen, might imply 
for the forces, it is important for us to better characterize 
and understand if these are maturations of current capabilities 
or new capabilities that are going to require different ways of 
fighting on the peninsula, different ways of evolving the 
alliance, et cetera, et cetera.
    So as we are looking at not only the technological 
evolution, we really have to look at the effect on the 
battlefield. So if it turns out that is something that might be 
interesting but does not really affect the way that we are 
going to fight, then we would treat it differently than if it 
has an impact on the way that we need to array our forces or 
the types of capabilities we would have to develop with the 
ROK's to be able to make sure we are on path to be able to 
deter that aggression.
    Ms. Houlahan. Thank you. And I do look forward to the 
closed session and having follow-on conversations on these 
issues.
    I yield back the balance of my time.
    The Chairman [presiding]. Thank you.
    And actually, if I could take the temperature of the 
remaining members of the room, one idea is that we simply go 
ahead and move upstairs now. So of the people who are left here 
who have questions, how many--is there anyone here who really 
wants to ask it in public versus in classified, or would it be 
more useful to get up to the classified session more early?
    So let me ask the question this way, show of hands: How 
many members want to ask questions in this public setting as 
opposed to the--okay.
    Is it okay if we take those four--that would be a little 
out of order--and then move up, or--yeah, it is an unfair 
question to ask.
    All right. Given that there are four, we will have to keep 
plowing ahead here, and we will go from there.
    Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman. I will make it quick.
    China is the number one trade partner of both North Korea 
and South Korea. I have concerns about China's economic 
influence in South Korea, especially in the field of 
telecommunications. Last week I introduced H.R. 5661 to reduce 
intelligence sharing with countries that use Huawei as part of 
their 5G national security networks.
    Mr. Rood, should the United States be concerned with the 
security of South Korea's telecommunications and intelligence-
sharing networks?
    Secretary Rood. I share your concern about the pedigree and 
the sort of security that comes with Huawei-installed 
equipment. It is one of the areas where the Chinese Government 
works with their state-owned companies in ways that we find 
concerning.
    So we are trying to warn our allies against having unsecure 
activities in their networks. And it is an area of ongoing 
dialogue, not just with the ROK but with others. And so if a 
trusted partner were to do that, one of the concerns we would 
have is the security of the information that we provide and is 
it continuing to be safeguarded.
    Mr. Banks. Should we have specific concerns about the ROK?
    Secretary Rood. If they were to proceed with the 
installation of this type of ----
    Mr. Banks. Is there any evidence that they are proceeding 
to look at Huawei as a part of their security network?
    Secretary Rood. We do not have the concern that those 
things have been emplaced yet, but obviously one of the 
concerns we have is various telecommunications providers 
considering the installation of that type of equipment.
    And so, short answer to your question, we have a concern. 
However, that concern has not manifested itself in a way that--
with the installation of the equipment in a way that is 
problematic.
    Mr. Banks. Okay, fair enough.
    As Congresswoman Hartzler also discussed earlier, in April 
2019 South Korea withdrew from the intelligence-sharing pacts 
between Japan and South Korea amidst trading concerns. After 
heavy U.S. pressure, South Korea agreed to delay its withdrawal 
from the agreement in November of 2019.
    General Allvin, has the eroded relationship between the ROK 
and Japan resulted in operational challenges for our forces? 
And have there been any specific instances of a failure to 
share critical intelligence between South Korea, Japan, and the 
United States in the last year?
    General Allvin. Congressman, the short answer to that is 
no, there really has not been any. However, from the military-
to-military side, we do understand that having that 
relationship between the Republic of Korea and Japan is 
important. However, we still maintain the intelligence sharing 
that we would need to maintain our collective situational 
awareness.
    So I would characterize it as it has not had any 
deleterious military effects. But we are pleased to see, as 
Secretary Rood mentioned, that the Republic of Korea did 
suspend their withdrawal from it. So the idea that this can 
continue is still something that we are very pleased to see.
    Mr. Banks. Okay. The United Nations has documented North 
Korea's efforts to evade sanctions, including ship-to-ship 
transfers of oil and coal in the waters off China and Russia's 
coast.
    In June of 2019, North Korean vessels were photographed 
performing illegal ship-to-ship transfers of sanctioned goods. 
Subsequently, the U.S. Treasury was able to designate multiple 
individuals and international corporations on their sanctioned 
entities list.
    General, what are we doing with our international partners 
to continue to tackle these illicit actions and enforce our 
sanctions on North Korea?
    General Allvin. Congressman, I think we can maybe go into a 
little bit more depth in the closed session. But in general, 
Secretary Rood mentioned this Enforcement Coordination Cell, 
this actually translates into the military. It is a total of us 
plus eight additional countries that are working together to 
enforce the sanctions. And that includes sharing the 
information with respect to those illicit ship-to-ship 
transfers, how we might be able to work together to garner the 
information to get to the sources of those, to put pressure on 
and/or at some point perhaps even interdict those shipments.
    As we have seen, as a result the North Koreans continue to 
amend and change their approaches. They have become somewhat 
effective, but we continue to apply pressure, not only with us 
but with this eight-member coalition, if you will.
    Mr. Banks. Very good. Thank you.
    I yield back.
    The Chairman. Mrs. Luria.
    Mrs. Luria. Good morning.
    Of specific interest to me is naval readiness, naval forces 
stationed in the theater. Specifically, we have a carrier 
strike group in Yokosuka. We have an amphibious readiness group 
in Sasebo.
    It has been a great concern of mine over recent months that 
aircraft carrier readiness has not been on par for responding 
to a contingency within this region. I was wondering if you 
could comment on that. Was there any alternative planning done 
at the point when we could not or when in the future we might 
not be able to meet our carrier response times to respond to a 
conflict in this theater?
    General Allvin. Congresswoman, I believe the expert on that 
would probably have to reside more with the service itself. 
However, to reiterate--really, it is a response I made 
earlier--is those concerns are voiced, they are considered when 
looking at the global repositioning of assets, the global 
utilization of those assets in the context of evolving 
contingency or emerging crises.
    But I think with respect to the long-term readiness 
impacts, et cetera, those are voiced and those are considered 
from not only the CNO [Chief of Naval Operations], but through 
the Joint Chiefs and the Secretary.
    So those are not dismissed, to be sure, and those are part 
of a more comprehensive decision.
    Mrs. Luria. Okay. Moving on, my next question is similar 
but about strategic sealift. You might be aware that there was 
an exercise conducted recently where the results were less than 
satisfactory as far as doing an unannounced surge of our 
strategic sealift assets, both MSC [Military Sealift Command] 
and those belonging to MARAD [Maritime Administration].
    My assessment of that report shows that we would not have 
been able to adequately respond with adequate square footage of 
our strategic sealift ships. Can you comment on that impact on 
any contingencies within the region?
    General Allvin. Congresswoman, this is one of those good 
news/bad news stories from the point of view of the joint 
force. It was Secretary Esper's initiative to be able to drive 
this to figure out where we are falling short.
    I would yield to probably the TRANSCOM [U.S. Transportation 
Command] commander. I can take it back for the record to go to 
the TRANSCOM commander, as well as our J4 [Director of 
Logistics], to better characterize the path ahead.
    But to your point, certainly it was a point of learning for 
us to understand really just the state of that, and 
Transportation Command, working with INDOPACOM, can give a 
better feel for. And probably it would be more appropriate in a 
closed setting to get the answers you are probably seeking 
about the potential impacts of any of those shortfalls. And we 
will be sure and get back to you if I can take that for the 
record.
    [The information referred to can be found in the Appendix 
on page 55.]
    Mrs. Luria. So it sounds to me like on both of these 
questions, carrier readiness and strategic sealift, which are 
critical for our national defense in this theater, you are in 
the discovery phase of determining what shortfalls that you 
have? That does not seem like a satisfactory response, General.
    General Allvin. I would not characterize it as in the 
discovery phase. I think we are refining potential solutions to 
that. And I think you constantly find yourself updating and 
responding to things as they emerge. And so I would not say we 
are in a discovery phase, but I would say that the Department 
is actively aware and paying attention to these particular 
elements and is addressing them through not only alternate ways 
of employing the force, but I am sure they will show up in 
potential future budget considerations.
    Mrs. Luria. Thank you. That was going to be my next 
question, because as we have the ability to provide those 
resources that information is very meaningful to us to be able 
to make decisions to modernize strategic sealift in the future 
and ensure that we have adequate square footage, adequate 
trained personnel to conduct those missions. So thank you.
    The Chairman. Thank you.
    A couple things. I am going to get to Mr. Mitchell next.
    We are going to be done with the open portion of the 
session at 11:50, so we can move upstairs to get to the closed 
portion. So we will get to whoever we can get to in that 
timeframe. And then we are going to move upstairs and do like a 
5-minute break. We are not going to magically transform up 
there. So it will start at 11:55.
    Mr. Mitchell.
    Mr. Mitchell. Thank you, Mr. Chair, and I will work on 
being brief.
    A couple questions for you. I guess our basic most 
elementary objective with North Korea is to prevent the 
proliferation of nuclear capability to other areas, to export 
that capability. You probably cannot answer in any great detail 
in this setting, but I think you can answer, is there any 
evidence, any assessment we have that North Korea is engaged in 
that at this point in time?
    Secretary Rood. North Korea has a long track record of 
proliferation of military capabilities, to include ballistic 
missiles, to a variety of countries. And so it is a pattern, if 
you will, a profile that they fit as a proliferator that causes 
us real concern.
    Clearly, some of the questions that you, I think, are going 
to ask we can delve into in significant depth in the classified 
session.
    Mr. Mitchell. If you could pursue that. I cannot make the 
classified setting, but I would like to know basically yes/no, 
do we have any indication on nuclear capability, beyond all the 
other I am aware they are engaged in, that they are trying to 
use their nuclear knowledge basically to raise money to support 
their program? Have you seen any evidence of that?
    Secretary Rood. Again, in the past there have been some 
things, you know. And, again, I am trying to sort out in my 
mind what I can say in public. But certainly, the North Koreans 
have engaged in some proliferation behavior in the past in this 
area, but at present we are not seeing them engage in nuclear 
proliferation.
    Mr. Mitchell. If you could share that with the committee so 
I can get it from staff or other members in the closed setting. 
I will not be able to make it, but I would appreciate that. I 
think it is useful information as we look up to the objectives 
we have in North Korea, is to try to at least keep them from 
not spreading that further and creating greater risks in the 
world.
    Secretary Rood. Yes, sir.
    Mr. Mitchell. A parallel question a little differently from 
Mr. Gallagher. You will find on this committee we have got a 
lot of perspectives.
    The continuing budget growth long term in defense is 
literally not sustainable. And I was impressed with the 
Commandant of the Marines' planning guidance where he started 
talking about investments, where we invest in, how we make 
those decisions.
    Do we expect any feedback from the Marines, first in terms 
of what their changing priorities will be and how it is--do we 
expect any--is there any timing on that that you are aware of?
    General Allvin. Congressman, I am not aware specifically of 
reporting back other than I would imagine that may come up 
during the posture settings with regard to the way forward. But 
I am not aware of the U.S. Marine Corps in specific coming back 
as a service to define their investment priorities.
    Mr. Mitchell. That is a particular interest of a task force 
which you are aware was created with Mr. Moulton and Mr. Banks 
as co-chairs, a bipartisan task force, the defense of the 
future, is to try to assess what our military should look like 
down the road 10, 20, 25 years from now. That is important 
information that we could use.
    And a parallel question, an additional question is, are the 
other services engaged in similar conversations? I don't think 
we can keep investing in what we have always done and hope that 
is adequate for the risks we face in the world.
    General Allvin. Congressman, to that point, absolutely 
other services are. And to really expound upon that point, it 
is not just that each of the services need to do that, but if 
they do it individually without a coherent synthesizing joint 
warfighting concept, then we are really missing the boat on 
that.
    And the Department recognizes that. There is some 
significant work being done within the Department to be able to 
wrap their heads around exactly how we take all the significant 
work which is being done by all the services. Because, to your 
point, sir, everyone understands that doing things the way that 
we have done is not only not sustainable, but it may not be 
relevant for the strategic environment within which we may have 
to fight.
    Mr. Mitchell. As much feedback as you folks have about 
that, I understand the Pentagon's timeframes may be a little 
different than the world over here, but our task force has a 
limited timeframe in which we function and are supposed to put 
out a report. I would rather it be relevant. I would rather it 
include the important information.
    Again, I was impressed with the perspective of the 
Commandant of Marines, because I think it is relevant to our 
future financial posture in this Nation.
    One other quick question and we are going to run out of 
time here. Maybe it is longer term for the record.
    We fail to recognize sometimes on a holistic basis that 
China's threat to the world is not just military, it is 
economic. They couple the two arm in arm. Yet somehow this 
nation fails to adequately address that.
    Have you and the State Department talked in more detail 
about how it is you link our economic capabilities with our 
military interests or national defense, forget military, our 
national interests to deal with North Korea, China? We do not 
seem to do that well, and I think it is causing us significant 
issues.
    The Chairman. And that is not a 7-second question.
    Mr. Mitchell. No, it is not.
    The Chairman. Unfortunately, you are going to be out of 
time before he can answer in any substantive way. So that will 
have to be taken for the record.
    [The information referred to can be found in the Appendix 
on page 55.]
    Mr. Mitchell. I appreciate it, Mr. Chairman. I think it is 
important that we have that conversation.
    The Chairman. Absolutely.
    Mr. Mitchell. Thank you.
    The Chairman. Mr. Cisneros.
    Mr. Cisneros. Thank you, Mr. Chairman.
    Thank you, gentlemen, for both taking some time to be here.
    We have talked about this before already, but the Special 
Measures Agreement we know has expired. We are asking the 
Government of South Korea to spend a fivefold increase in the 
amount that they pay to keep us there.
    Have we looked into this? Like, how is that going to deter 
South Korea's defense capabilities, how is that going to affect 
their operational capabilities if we are asking them to spend 
more to keep us there rather than to spend it on their own 
defense? And have we looked into that at all?
    Secretary Rood. The short answer is yes, we have looked at 
that. And what we are asking the South Korean Government to do, 
and one of the wealthiest countries on Earth, to shoulder more 
of the cost of our joint operations, of the operation of U.S. 
forces there.
    The South Korean Government, though, spends a noteworthy 
percentage of their GDP, well over 2 percent. It is about, if I 
recall correctly, about 2.6 percent of their GDP on their 
defense, which is very substantial, because they have a very 
large and capable armed force.
    And one of the things, as you mentioned, that we work with 
them on is the modernization of that force. And they do it 
principally by purchasing equipment from the United States. So 
that is another added benefit that we receive from our 
partnership.
    So it is something that we think that they can afford to 
increase their share of the cost that they bear. But, 
obviously, we do want them to continue to modernize, and that 
is one of the benchmarks as part of the transition of 
operational control to the ROK forces.
    Mr. Cisneros. Well, some would argue that their economy is 
struggling and it is becoming harder for them. And to ask them 
to continue to modernize their force while at the same time to 
pay us five times more to keep us there is something they may 
not be able to do.
    But, on the other hand on that, I mean, really, asking them 
to pay--when the President goes out and the administration asks 
them to pay five times more than what they are currently paying 
and then the leader of North Korea is hearing this, do we not 
consider that, too, that maybe this is part of them, it is 
causing him to act out? Or is this just an empty threat for us? 
Are we going to carry this? Will we actually move our forces 
out if Korea does not kick in more money? And what are we doing 
here and why are we doing this?
    Secretary Rood. My strong hope and encouragement to our 
negotiators has been we have had tough negotiations in the past 
on previous Special Measures Agreements. We really need to 
hammer this one out and get to the point where we have got an 
agreement soon.
    It is not in our interest, it is not in the Republic of 
Korea's interest to see this go on for an undue period of time. 
We are both committed to the alliance. We are just discussing 
the appropriate burden-sharing mechanism.
    And we do have to be conscious, as you say, about not 
sending an inadvertent signal to the North Koreans that there 
is some division within the alliance that we cannot resolve, 
because we are partners together. We are very dependent on each 
other for executing that defense. And we need to work it out as 
partners, is my opinion.
    Mr. Cisneros. Then my last question is, and you have 
touched on this, both of you have touched on this before, but, 
again, the military intelligence agreement between Japan and 
South Korea. I know it was nipped at the bud before it was 
suspended before.
    But, I mean, going forward, are we working with both of 
these governments to kind of make sure to kind of help them out 
and so that we do not come into a situation where two of our 
allies are no longer sharing information in a region that is 
important to all of us?
    Secretary Rood. We are trying very hard to encourage the 
two of them to maintain a closer relationship, to work through 
some of their differences.
    As you probably know, the nature of the disputes in some 
cases are historical and the way those things work through, but 
we have tried to be very forceful with both of them.
    From our perspective, the only person that gains from this 
is North Korea, this sort of inability to be working, 
functioning partners. And we really have shared concerns. We 
try to impress that upon both of them.
    We were very fortunate. We put a lot of energy into trying 
to preserve the intelligence-sharing arrangement. We are 
grateful that the ROK suspended their withdrawal. But it is not 
something that we feel is working as well as we would like it 
to work. This is a continued area of emphasis for us with both 
governments.
    Mr. Cisneros. With that, I yield back my time.
    The Chairman. Thank you.
    Mr. Bergman.
    Mr. Khanna.
    Mr. Khanna. Thank you, Mr. Chairman.
    Secretary Rood, Lieutenant General Allvin, thank you for 
your service.
    One of the areas where I have been supportive of President 
Trump's efforts is to seek a diplomatic solution in North 
Korea, and I have publicly said that we should be supportive of 
the administration's efforts to do that.
    My understanding from Chung-in Moon, who is a senior 
adviser to President Moon, is that President Moon and Chung-in 
Moon would strongly encourage a peace declaration between the 
United States and North Korea as a first step.
    Now, I understand that we cannot remove sanctions or take 
other actions before North Korea denuclearizes, but even 
President Trump has said that there seems no harm to have a 
peace declaration. And this Congress passed in the NDAA 
[National Defense Authorization Act] a resolution encouraging 
the President to do that. In fact, the President has said that 
he didn't understand why we are still at war with North Korea 
and that most Americans would find that very perplexing.
    My understanding is that the President made this commitment 
to have this peace declaration, and then John Bolton basically 
torpedoed it. I am hopeful, given the current circumstances, 
that that may incentivize the President even more to follow 
through on going with the peace agreement.
    But my question to you is, is there any harm in having a 
formal peace declaration with North Korea, especially 
considering President Moon and others in South Korea want this 
and they have the biggest risk of action from North Korea?
    Secretary Rood. As you mentioned, the 1953 armistice simply 
brought a cessation to the hostilities. It is not a long-term 
peace agreement. And it is something that the ROK government 
has sought, and previous administrations and the present 
administration in the United States would like to see a long-
term peace agreement with North Korea.
    I think our view has been we have sought to negotiate those 
type of activities with the North Koreans and this would be 
another subject of the negotiations that could be worked out 
with the North.
    I would agree with you that that is desirable. We clearly 
have been in a state without a long-term agreement. The 
armistice was not intended to survive decade after decade after 
decade. And so if something like that could be negotiated with 
the North Koreans, I think that would be in our interest.
    Mr. Khanna. Could we make the first move? My understanding 
of what happened is that the President actually said, let us 
have a peace declaration, we can do the negotiation afterwards. 
Then you have to take steps to reduce your nuclear weapons, to 
denuclearize, and only then would we consider reduction of 
joint military exercises or reduction of sanctions.
    And that was the President's approach. And then he got 
pushback by John Bolton and Secretary Pompeo. And Kim Jong-un 
thought that there was a commitment we would at least have a 
peace agreement.
    My sense is the President's instincts were far better on 
this than his advisers'. And the question is, is there any 
possibility that we could, as a good faith gesture, have a 
peace agreement and then we can negotiate on the rest?
    Secretary Rood. I would have to consult with Secretary 
Pompeo as to his current thinking on that. He takes the lead 
role in that sort of tactical decision about when the United 
States would be willing to make offers to those kinds of 
agreements with the North Koreans.
    But from the Defense Department perspective, again, if 
something like that could be negotiated with the North Koreans, 
we would see that as being a beneficial thing.
    Obviously, you need the other party--other parties--
involved to participate. You mentioned the South Koreans. But 
certainly the North Koreans would have to be, in my view, a 
willing participant and come to the table to work that out.
    Mr. Khanna. Well, I appreciate anything you can do on the 
issue.
    The Chairman. Thank you.
    Okay, we will move upstairs. So we will be taking a brief, 
like, 6-minute break to move into 2212 and proceed to a 
classified session. Thank you very much.
    [Whereupon, at 11:49 a.m., the committee proceeded in 
closed session.]



      
=======================================================================




                            A P P E N D I X

                            January 28, 2020

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 28, 2020

=======================================================================

      

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            January 28, 2020

=======================================================================

      

            RESPONSE TO QUESTION SUBMITTED BY MR. THORNBERRY

    Secretary Rood. Secretary Esper has reaffirmed that, per the 
National Defense Strategy, maintaining a military advantage that deters 
aggression in the Indo-Pacific is DOD's first priority. As DOD detailed 
in the Indo-Pacific Stability Initiative Plan provided to Congress in 
June 2019, the DOD budget as a whole makes significant investments in 
platforms and munitions, ally and partner capabilities, and force 
posture initiatives that are integral to maintaining our military 
superiority in the region. The President's Budget request represents 
the Secretary's best judgment on how to balance the competing demands 
on DOD resources, given our current topline. DOD will continue dialogue 
with Congress to optimize investments and enhance messaging to increase 
deterrence and reassure our allies and partners in the Indo-Pacific 
region.   [See page 8.]
                                 ______
                                 
            RESPONSE TO QUESTIONS SUBMITTED BY MRS. HARTZLER
    General Allvin. I defer discussion on sensitive and emerging U.S. 
military capabilities to the closed session. That being said, 
underground or tunnel warfare has been the subject of much discussion 
among the unified combatant commands, including exercises exploring it 
at some of our senior leadership conferences. Underground warfare 
development is a current focus area for special operations forces. It 
requires unique capabilities and special training. I am confident in 
the ability of our military forces, but there is certainly more work to 
do.   [See page 16.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MRS. LURIA
    General Allvin. U.S. Transportation Command, in coordination with 
the Navy will provide a response to your concerns.   [See page 31.]
                                 ______
                                 
            RESPONSES TO QUESTION SUBMITTED BY MR. MITCHELL
    Secretary Rood. The Department of Defense recognizes the People's 
Republic of China (PRC) relies on a whole-of-system approach to achieve 
its goals. This pursuit is most evident in the PRC's Military-Civil 
Fusion (MFC) strategy, which works to combine civilian and military 
industry. The Department of Defense is working with the Department of 
State, and all other Departments and Agencies, to mitigate risks to the 
U.S. economy and our research institutions posed by PRC efforts to 
acquire and develop technologies for military end uses. This includes 
the Protecting Critical Technology Task Force (PCTFF), which is 
developing protection plans for critical technology areas in the 
defense industrial base. The Department of Defense is also leveraging 
American technological innovation through our Joint Artificial 
Intelligence Center (JAIC), which is accelerating the delivery of AI-
enabled capabilities, scaling the Department-wide impact of AI, and 
synchronizing DOD AI activities to expand our warfighting advantages.   
[See page 34.]
    General Allvin. The Department of Defense (DOD) routinely monitors 
and incorporates the economic activities of China and the DPRK into its 
strategies and plans. China's economic activities are of particular 
interest in that it uses economic expansionism in a way that could 
constrain the ability of the U.S. to pursue its national interests, and 
it also undermines global order through economic support of the DPRK. 
The DPRK's activities are also of concern as DOD works within the 
administration's framework to pressure the DPRK through sanctions. 
Working closely with the Department of State and the National Security 
Council, the DOD supports the administration's policies to counter 
those economic activities that have an intersection with the 
capabilities of the Joint Force.   [See page 34.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            January 28, 2020

=======================================================================

      

                  QUESTIONS SUBMITTED BY MS. STEFANIK

    Ms. Stefanik. Last year, it was reported that a presidential Blue 
House official stated that South Korea used Huawei hardware for less 
than 10% of its fifth-generation cellular infrastructure with the rest 
provided by Samsung and other firms. The official also stated that the 
Huawei equipment was clearly isolated from their defense and security 
telecoms networks. Taking a much different approach from the United 
States on Huawei and 5G, how is the Department setting policy moving 
forward to continue to bolster relationships (under the NDS) and but 
also secure critical technologies and information?
    Secretary Rood. From a defense perspective, the new and distinct 
security challenges posed by 5G networks mean there is no safe place 
for Huawei, ZTE, and other untrustworthy vendors anywhere in U.S., 
ally, or partner 5G networks. The United States is on track for broad 
deployment by 2020 and is not using high-risk vendors. In fact, the 
United States is working with Samsung, a very capable, trusted, South 
Korean vendor, in building out our own 5G infrastructure. Strengthening 
alliances and partnerships is a key priority in implementing the 
National Defense Strategy, and so we will continue to work with partner 
countries to ensure high-risk vendors are not present in their 5G 
networks as well. We are encouraging our allies and partners to adopt 
risk-based security frameworks in line with the Prague Proposals, and 
to work with us to support the competitiveness of alternative 
suppliers.
    Ms. Stefanik. ast year, it was reported that a presidential Blue 
House official stated that South Korea used Huawei hardware for less 
than 10% of its fifth-generation cellular infrastructure with the rest 
provided by Samsung and other firms. The official also stated that the 
Huawei equipment was clearly isolated from their defense and security 
telecoms networks. Taking a much different approach from the United 
States on Huawei and 5G, how is the Department setting policy moving 
forward to continue to bolster relationships (under the NDS) and but 
also secure critical technologies and information?
    General Allvin. South Korea is a great ally of the United States, 
and we do not dictate their domestic policies. What we do urge our 
allies and partners to do is to safeguard, to the greatest extent 
possible, their communication infrastructure by working with commercial 
entities that engage in principled operations, are independent of 
foreign government control, transparent in how they are structured, and 
accountable to the rule of law.
    When South Korea launched its 5G network in April 2019, the largest 
local telecom providers (SK Telecom and KT Corporation) used Samsung, 
Ericsson, and Nokia base stations and equipment, while LG U Plus used 
Huawei equipment. Samsung was the largest supplier for 5G base stations 
in South Korea at launch, accounting for 53,000 of the 86,000 base 
stations installed across the country at the time, followed by Huawei 
at 18,000, with the remaining 15,000 provided by Ericsson and Nokia.
    The United States remains very concerned about Chinese technology 
in our networks, specifically Huawei. The Department has expressed to 
our allies on multiple occasions, particularly during Secretary Esper's 
visits to the NATO defense ministerial in Brussels, that Chinese 
technology risks compromising our networks, which could further 
compromise our ability to conduct joint planning, and share information 
and intelligence. It could also compromise the security and efficacy of 
our alliance. So we continue to urge our allies and partners to take 
this all into consideration as they consider 5G.
                                 ______
                                 
                     QUESTIONS SUBMITTED BY MR. KIM
    Mr. Kim. Secretary Rood, North Korea conducted tests of short-range 
ballistic missiles (SRBM) on a dozen occasions in 2019. Public reports 
suggest that these SRBMs are maneuverable, leverage solid fuel systems, 
and pose a challenge to missile defense systems. Can you provide the 
committee an overview of the challenge posed by these capabilities?
    Do the SRBMs tested by North Korea in 2019 represent an additional 
threat to our allies: South Korea and Japan?
    Do the SRBMs tested by North Korea in 2019 violate U.N. Security 
Council Resolutions?
    Secretary Rood. I defer a discussion on specific capabilities of 
foreign systems and our defenses until the Department can send 
representatives to speak to you in a closed setting. On your question 
regarding short-range ballistic missile (SRBM) tests, yes, UN Security 
Council (UNSC) resolutions prohibit all North Korean ballistic missile 
testing and activity. The Department of State is in the lead for the 
diplomatic efforts. From a military perspective, North Korea's 
development of ballistic missiles represents a credible threat to U.S. 
interests, and to the security of our allies and partners. The United 
States did condemn these SRBM launches and joined the statements of our 
allies at the UNSC closed sessions.
    Mr. Kim. a. General Allvin, what are the benefits to U.S. national 
security of our forward posture in South Korea and Japan?
    b. We have a current baseline of 28,500 troops in South Korea. Is 
reducing our posture below 28,500 today in U.S. national security 
interests? Would doing so undermine the national security interests of 
our allies in the region?
    c. Has there been a reduction in the threat posed by North Korea in 
the last year?
    General Allvin. The United States maintains a Mutual Defense Treaty 
with the Republic of Korea (ROK) and a Mutual Security Treaty with 
Japan. USFK, in coordination with USFJ and USINDOPACOM, remains 
committed to deterring, defending, and if necessary, defeating any 
adversary that threatens those alliances. Our forward deployed forces 
serve several purposes. They are designed and sustained to deter 
unconventional attacks or conventional attacks, assure allies and 
partners, achieve U.S. objectives if deterrence fails, and serve as 
insurance in an unpredictable future.
    The Department of Defense has no plan to withdraw U.S. Forces from 
the ROK as a result of the SMA or any other agreement, nor have we been 
instructed to plan for that contingency. Our commitment to the security 
of the ROK is ironclad, and the U.S.-ROK Alliance is the linchpin of 
peace and security in the region.
    No. North Korea continues to pose a threat to South Korea, Japan, 
and U.S. forces in the region. Pyongyang has advanced their ballistic 
missile and conventional weapons programs over the past year, and 
retains its WMD capabilities. The IC continues to assess that North 
Korea is unlikely to give up all of its WMD stockpiles, delivery 
systems, and production capabilities. North Korea will continue to 
claim its development of nuclear weapons as self-defense against the 
United States, a nuclear power with a considerable military presence on 
the Korean Peninsula. From Pyongyang's perspective, it is forced to 
continue its nuclear proliferation despite Washington's repeated 
assertions that it has no intention of launching an offensive attack 
against the North.
    Mr. Kim. General Allvin, North Korea conducted tests of short-range 
ballistic missiles (SRBM) on a dozen occasions in 2019. Public reports 
suggest that these SRBMs are maneuverable, leverage solid fuel systems, 
and pose a challenge to missile defense systems. Can you provide the 
committee an overview of the challenge posed by these capabilities?
    Do the SRBMs tested by North Korea in 2019 represent an additional 
threat to our allies: South Korea and Japan?
    Do the SRBMs tested by North Korea in 2019 violate U.N. Security 
Council Resolutions?
    General Allvin. Over the past decade, North Korea has accelerated 
efforts to field missiles capable of threatening deployed U.S. forces, 
allies, and partners in the region. Not only have they fielded more 
such missiles, but have also improved the performance of existing 
systems and developed new capabilities that include what appears to be 
new short range ballistic missiles. More advanced capabilities, such as 
a maneuverable ballistic missile, can complicate ballistic-missile 
defenses by making it more difficult for a fire-control system to 
predict the missile's path and impact point. These provocative 
activities continue to highlight North Korea's commitment to 
challenging regional stability by improving its offensive missile 
forces.
    Japan and South Korea are each closely working with the United 
States to build missile defense systems that are increasingly 
interoperable with U.S. defenses and increasingly capable against 
regional offensive missile threats. Maneuverable and solid-fuel 
missiles present an increased challenge relative to the older missiles 
North Korea has in their inventory. However, the U.S. is committed to 
outpacing emerging missile threats and hedging against future 
uncertainties as essential elements of our missile defense strategy. We 
are steadily improving the reliability and lethality of current missile 
defense forces and enhancing the ability of U.S. active missile 
defenses to track, target, and destroy adversary offensive missiles 
with greater precision. DOD has taken steps consistent with the annual 
budget process to improve or adapt existing systems and build new 
systems that will continue to maintain our relative technical advantage 
over North Korean capabilities.
    Any ballistic missile test is a violation of UN Security Council 
Resolution 1718, 14 OCT 2006, and UN Security Council Resolution 1874, 
12 JUN 2009, both of which call for North Korea to suspend all 
ballistic missile activities.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. ESCOBAR
    Ms. Escobar. With regard to the soon-expiring cost-sharing 
agreement with Japan, public reports indicate that the Trump 
administration initially asked Japan to increase its cost-sharing 
contributions from $2 billion to roughly $8 billion annually.
    What is the total annual cost of maintaining our military presence 
in Japan? What is the basis for requesting an exponential increase in 
contributions from Japan? Are there changes in the security environment 
are driving this request?
    Secretary Rood. OSD Policy defers to OSD Comptroller as the 
Department's principal entity for determining and accounting for costs 
necessary to support our overseas force presence in host nations 
worldwide. The current Host Nation Support agreement with the 
Government of Japan directly offsets U.S. costs for host nation labor, 
utilities, training relocation, and construction. The Host Nation 
Support agreement facilitates the Government of Japan's ability to 
defray the costs of stationing U.S. forces in Japan. In that context, 
the amount to be requested will aim to offset a larger and fairer 
portion of the U.S. costs and reduce the burden on the U.S. taxpayer. 
The Department remains committed to reaching an agreement with Japan 
that is fair, achieving equitable burden-sharing between the United 
States and the Government of Japan.
    Ms. Escobar. In your view, do continued, tense, public negotiations 
over cost-sharing with an ally strengthen the alliance? If so, how?
    Secretary Rood and General Allvin. The first U.S.-Republic of Korea 
(ROK) Special Measures Agreement was concluded in 1991. Since then, the 
United States and the ROK have periodically engaged in tough 
negotiations to conclude new SMAs that help offset the cost of 
stationing U.S. military forces on the Korean Peninsula. The ROK 
contributions to the Alliance over the last few decades are 
commendable, including the support the ROK provided through previous 
SMAs. However, looking to the future, we must be prepared to face more 
numerous and complex challenges together. To adapt and prepare for 
these challenges, the United States is investing more robustly in our 
combined defense, and we are asking the ROK to shoulder a larger, more 
equitable share of the burden of maintaining peace and security in an 
evolving strategic environment. Though we are engaged in tough 
negotiations, we remain committed to reaching a mutually beneficial and 
equitable agreement that will strengthen the Alliance and our combined 
defense.
    Ms. Escobar. In recent weeks, there have been reports of certain 
base support activities being suspended at Camp Humphreys because of 
ongoing cost-sharing disputes. Some 10,000 South Korean nationals work 
on the base to keep service running for our personnel and families. Has 
the Department taken any austerity measures to date to mitigate the 
necessity of possible furloughs? What additional measures are being 
considered to avoid furloughs if cost-sharing challenges persist?
    General Allvin. U.S. Forces Korea (USFK) has taken the additional 
step to enable continuity of its operations by programming U.S. funds 
to sustain the salaries of its Korean National (KN) workforce. These 
U.S. funds will be exhausted on Tuesday, March 31, 2020, unless the ROK 
government agrees to materially increase its support for U.S. forces 
committed to the defense of the ROK. If agreement cannot be reached on 
a comprehensive new SMA, it will be necessary to furlough most KN 
employees on April 1, 2020, and suspend many construction and logistics 
activities.
    USFK has been conducting continuous planning to mitigate risk to 
life, health, safety and minimize impacts to readiness. The Department 
of Defense will fund critical USFK logistics cost sharing contracts and 
the salaries of key USFK KN employees who provide these services. All 
other services supported by KN employees will need to be suspended in 
an orderly and deliberate fashion.
    Furloughs may be avoided if the ROK agrees to a more equitable SMA. 
The United States remains committed to negotiating a mutually 
acceptable agreement which provides for fair and equitable burden 
sharing and strengthens the U.S.-ROK alliance.
    Ms. Escobar. With respect to Camp Humphreys, what services are 
being restricted or would be restricted if furloughs are necessary? 
What efforts are being made to ensure service members and military 
families have access to services they rely on?
    General Allvin. I defer to INDO-PACOM and USFK to provide the 
appropriate response.

                                  <all>
</pre></body></html>
